<html>
<title> - FUNDING FOR FEDERAL FOSTER CARE INITIATIVES IN THE DISTRICT OF COLUMBIA</title>
<body><pre>[Senate Hearing 109-262]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 109-262

 
FUNDING FOR FEDERAL FOSTER CARE INITIATIVES IN THE DISTRICT OF COLUMBIA

=======================================================================

                                HEARING

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                            SPECIAL HEARING

                     MARCH 10, 2005--WASHINGTON, DC

                               __________

         Printed for the use of the Committee on Appropriations


  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html


                               __________

                    U.S. GOVERNMENT PRINTING OFFICE
25-855                      WASHINGTON : 2006
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                      COMMITTEE ON APPROPRIATIONS

                  THAD COCHRAN, Mississippi, Chairman
TED STEVENS, Alaska                  ROBERT C. BYRD, West Virginia
ARLEN SPECTER, Pennsylvania          DANIEL K. INOUYE, Hawaii
PETE V. DOMENICI, New Mexico         PATRICK J. LEAHY, Vermont
CHRISTOPHER S. BOND, Missouri        TOM HARKIN, Iowa
MITCH McCONNELL, Kentucky            BARBARA A. MIKULSKI, Maryland
CONRAD BURNS, Montana                HARRY REID, Nevada
RICHARD C. SHELBY, Alabama           HERB KOHL, Wisconsin
JUDD GREGG, New Hampshire            PATTY MURRAY, Washington
ROBERT F. BENNETT, Utah              BYRON L. DORGAN, North Dakota
LARRY CRAIG, Idaho                   DIANNE FEINSTEIN, California
KAY BAILEY HUTCHISON, Texas          RICHARD J. DURBIN, Illinois
MIKE DeWINE, Ohio                    TIM JOHNSON, South Dakota
SAM BROWNBACK, Kansas                MARY L. LANDRIEU, Louisiana
WAYNE ALLARD, Colorado
                    J. Keith Kennedy, Staff Director
              Terrence E. Sauvain, Minority Staff Director
                                 ------                                

                Subcommittee on the District of Columbia

                    SAM BROWNBACK, Kansas, Chairman
MIKE DeWINE, Ohio                    MARY L. LANDRIEU, Louisiana
WAYNE ALLARD, Colorado               RICHARD J. DURBIN, Illinois
THAD COCHRAN, Mississippi (ex        ROBERT C. BYRD, West Virginia (ex 
    officio)                             officio)
                           Professional Staff

                             Mary Dietrich
                             Emily Brunini
                        Kate Eltrich (Minority)


                            C O N T E N T S

                              ----------                              
                                                                   Page

Opening Statement of Senator Mike DeWine.........................     1
Statement of Senator Mary L. Landrieu............................     3
    Prepared Statement of........................................     4
Prepared Statement of Senator Thad Cochran.......................     7
Statement of Brenda Donald Walker, Director, Child and Family 
  Services Agency, District of Columbia..........................     7
    Prepared Statement of........................................     9
Statement of Martha Knisley, Director, Department of Mental 
  Health, District of Columbia...................................    16
    Prepared Statement of........................................    18
Statement of Hon. Lee F. Satterfield, Presiding Judge, Family 
  Court, D.C. Superior Court.....................................    22
    Prepared Statement of........................................    24
Statement of Judith Meltzer, Deputy Director, Center for the 
  Study of Social Policy.........................................    25
    Prepared Statement of........................................    28
Statement of Marilyn Egerton, Deputy Director, Foster and 
  Adoptive Parent Advocacy Center................................    30
    Prepared Statement of........................................    32
Letter From The Drenk Center.....................................    39
Prepared Statement of Youth Villages.............................    43
Prepared Statement of First Home Care............................    44


FUNDING FOR FEDERAL FOSTER CARE INITIATIVES IN THE DISTRICT OF COLUMBIA

                              ----------                              


                        THURSDAY, MARCH 10, 2005

                               U.S. Senate,
          Subcommittee on the District of Columbia,
                               Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 3:30 p.m., in room SD-192, Dirksen 
Senate Office Building, Hon. Mike DeWine (chairman) presiding.
    Present: Senators DeWine, Allard, and Landrieu.


               opening statement of senator mike de wine


    Senator DeWine. We made it. We apologize. We had four 
straight votes, so we apologize. Thank you all for waiting.
    The subcommittee today will focus on the progress that the 
Child and Family Services Agency (CFSA) has made in protecting 
the lives of the children in the District of Columbia's foster 
care system.
    The simple fact is that every child in foster care, whether 
it's a child here in the District or in Cincinnati or New 
Orleans or anywhere in America, deserves to live in a safe, 
stable, loving, and permanent home, with loving and caring 
adults. All children certainly deserve that. But, 
unfortunately, too many children are not getting what they 
deserve in this country.
    Over 10 years ago, the District's child welfare system was 
considered among the worst in our Nation. In 1989, the American 
Civil Liberties Union filed a class-action lawsuit, LaShawn A. 
v. Barry, against the city, arguing that the District was 
failing to protect neglected and abused children. In 1991, the 
case went to trial, where the court ultimately found the 
District liable.
    Following this decision, the parties involved in the case 
developed a remedial action plan. The court used this plan as 
the basis for its modified final order, which required the 
District to correct the vast deficiencies in its child welfare 
system.
    By 1995, however, little had changed, prompting U.S. 
District Judge Thomas P. Hogan to install a receiver to oversee 
the system and appoint a court monitor to review the District's 
performance.
    On June 15, 2001, the receivership ended, and 
responsibility was transferred to a newly established Cabinet-
level Child and Family Services Agency. The order terminating 
the receivership created a probationary period that would end 
when the District demonstrated progress on a series of 
performance indicators.
    Two years ago, this subcommittee held a series of hearings 
to shed light on the many and varied problems with the 
District's foster care system and to explore ways that the 
Federal Government, through funding provided by this 
subcommittee, could improve the failed system. Through our 
hearings and reviews, we found that there were several critical 
needs that, if addressed, could go a long way toward improving 
the lives of thousands of children in the District of Columbia 
foster care system and help expedite their placement in stable, 
loving homes.
    To that end, we have provided nearly $20 million over the 
past 2 years to address those needs, which include the 
following:
    One, intensive early intervention. This means that when a 
child comes into care, he or she is treated as an emergency 
situation. Just as hospitals triage medical trauma, the 
District's Child and Family Services Agency could do the same 
for the emotional trauma facing children who are brought into 
its care. The earlier a child is stabilized, the better his or 
her chances of avoiding long-term damage. We intended that a 
flexible fund be established that could be used to purchase 
beds, clothing, other items to help a relative bring a child 
into his or her home immediately without forcing the child to 
stay in a group home or foster home.
    Second, early mental health evaluations and timely mental 
health services for all children in foster care. The committee 
has provided funds for the District's Department of Mental 
Health to ensure that all children receive timely mental health 
assessments upon entering foster care, that all mental health 
assessment reports be provided to the court in a timely 
fashion, and that all children receive mental health services 
immediately after the court orders those services.
    We heard testimony from the D.C. Family Court that, in most 
child abuse and neglect cases where mental health services have 
been ordered, there have been long delays in providing those 
services to the child and/or the family. It had often taken up 
to 6 to 8 weeks, or longer, to complete an evaluation, and up 
to 60 days after the evaluation before the mental health 
services were provided, even in serious cases. I hope that we 
will hear from our witnesses today that those times have been 
dramatically shortened.
    Number three, recruitment and retention of qualified social 
workers. This subcommittee provided funds for the repayment of 
student loans for social workers at the Child and Family 
Services Agency in the hopes of recruiting and keeping 
qualified social workers. It's no surprise that the higher the 
caseload for a social worker, the lower the quality of service 
to each of those children. The District, like many cities, has 
suffered from the high turnover rate of social workers. 
Clearly, the relatively low pay and difficult working 
conditions of social workers has resulted in a child-welfare 
workforce crisis. We have taken a big step to encourage more 
workers to enter the child-welfare workforce by funding student 
loan repayment which will aid in the retention and improvement 
of conditions for the District's social workers.
    Number four, recruitment and retention of foster parents. 
This subcommittee also provided funds to recruit and retain 
foster parents. The Children and Family Services Agency had 
experienced difficulties recruiting and retaining an adequate 
number of appropriate qualified foster parents. One reason for 
this had been the lack of available respite care for foster 
parents. Foster parents do not have the same opportunities for 
respite care as biological parents. The funds we have provided 
have helped with emergency respite, planned respite, and 
ongoing regularly scheduled respite. This is critical to 
provide foster parents the rest that they need to continue to 
stay on as foster parents. I am hoping that our witnesses can 
give us a progress report on the use of these funds.
    Number five, improved computer tracking of all children in 
foster care. We have also provided funds so that the agency 
could move the current client-service system to a Web-based 
architecture and provide laptop computers to all CFSA social 
workers. The subcommittee had heard testimony from the 
Government Accountability Office that CFSA's database lacked 
many active foster care cases, and that the system was often 
down. In addition, social workers did not have access to the 
database via laptop computers. Social workers often had to 
return to the office, sometimes late at night, to enter data on 
children in care. We planned that some of the funding would 
allow the agency to purchase laptop computers for social 
workers so that they could be able to enter data from offsite 
locations, such as the courthouse or the child's home.
    As chairman of this subcommittee, my paramount goal has 
been to help the District of Columbia improve its foster care 
system. I view this as my most important priority, and hope 
that city leaders also will continue to place the highest 
priority on this goal. I believe that we have established a 
unique partnership in the area of foster care improvement. I am 
eager to hear what fruits our efforts are now bearing.
    As usual, witnesses will be limited to 5 minutes for their 
oral remarks to allow ample time for questions and answers. 
Written statements will be included in the record.
    Now let me turn to Senator Landrieu, who has been my great 
partner in this effort and who again will be joining me as the 
ranking member.
    Senator Landrieu.


                 STATEMENT OF SENATOR MARY L. LANDRIEU


    Senator Landrieu. Thank you, Mr. Chairman. And thank you 
for that excellent opening statement. I want to join you in 
that priority for the improvement and strengthening of our 
foster care system, and agree wholeheartedly with your 
designation as our lead issue. And I'm proud that we've started 
our hearings, Mr. Chairman, first on this important issue of 
foster care, because I look before me and see many partners in 
that effort.
    I'm going to try to keep my remarks very brief, because I 
know we have been delayed by unexpected votes, but I do have a 
few things that I'd just like to cover very briefly.
    One, Mr. Chairman and panelists, great cities, like great 
nations, are not built on roads and infrastructure and tall 
buildings, alone. In fact, their foundations rest on families. 
If families are not healthy and strong and economically 
independent, the communities they live in are not, either.
    It has been my honor to work with this chairman and with 
many of you to strengthen and to honor our families and to 
protect children. And I hope that we will continue to make 
progress.
    I'd also like to take this opportunity, before we begin 
with this panel, though, to restate that I hope that, as this 
year unfolds, we can continue our focus on the reform and 
strengthening of our public school system, which is also a 
critical foundation to building a great and vibrant city.
    In addition, no matter how strong our family support system 
is, no matter how strong our public school system is, if the 
city itself, in which these systems, if you will, rest, has a 
structural, real, and significant financial imbalance, whatever 
reforms that we can make couldn't last very long without the 
adequate funding, as well as good management necessary to keep 
them going. So I'm hoping that we'll continue, as this year 
unfolds, to focus on the structural imbalance, as the GAO study 
that we reviewed last year would indicate we should.
    I'll submit the rest of my remarks to the record, and also 
some written facts about the numbers of children, broken down 
in ways that some of the panelists in their testimony provided 
for us, and submit these so that we can just have a benchmark 
of how many children are in foster care, in-home and out, how 
many are a certain age, how many adoptions, how many 
terminations of parental rights, what is the backlog, so we can 
get benchmarks and really see that we are making progress.


                           PREPARED STATEMENT


    So, Mr. Chairman, thank you again. I'm going to be able to 
stay for just a few minutes, and, unfortunately, I'm going to 
have to slip out a little early.
    [The statement follows:]

             Prepared Statement of Senator Mary L. Landrieu

    Great cities, Mr. Chairman, like great nations, are not built on 
roads alone, their foundations rest on families. If the families are 
not strong, the communities they live in cannot be. It has been my 
honor, Mr. Chairman, to work with you to focus this committee on 
preserving families and protecting children. I hope the fact that we 
chose to hold our very first hearing of the 109th Congress on a system 
that aims to serve families says a lot about how important we feel this 
issue is to the future of the District.
    Before I share some of my thoughts on the issue at hand, I would 
like to take this opportunity to suggest other areas for this committee 
to focus on this year. As you well know, the primary purpose of the 
D.C. subcommittee is to ensure the immediate and long term economic 
health of the District. There are many ways we can do that. We can 
continue our work to correct what GAO has identified as a structural 
imbalance between the cost of providing city services and their ability 
to take in revenue. But at the same time, we must focus on other tools 
for bringing greater prosperity and long term stability to the 
District. Cities that have good public schools, safe communities and 
strong families are cities that have strong economies. If we focus 
ourselves on providing these things in the District, we will go a long 
way toward the economic independence the city needs and deserves.
    I think we have come a long way toward reforming public education 
in the District. One of the driving forces behind this change has been 
the charter schools. In the District, charter school students now make 
up 20 percent of the public school population, some 16,500 students. 
When people ask me why I support charter schools, I tell them it is 
because I believe in public education. I firmly believe that if we work 
to modernize the system of delivery for public education, allow greater 
opportunities for innovation and hold schools accountable for results, 
then we can provide a high quality public education for every child in 
America. One size does not fit all, and if we give our parents choices, 
they will choose what is best for their child.
    Until now, the focus of the charter school movement has been to 
increase the quantity of charter schools. But if we expect this to be 
more than a movement, we must shift our focus from quantity to quality. 
As the Washington Post put it, ``The District's experiment with charter 
schools has proved hugely popular with parents, but the schools vary 
widely in quality and have yet to demonstrate that they are doing 
better than the city's regular public schools in raising student 
achievement.''
    I am encouraged by the D.C. Board of Education's proposal to issue 
a short moratorium on issuing more charters. I think this indicates 
that they are not going to try and do more; they are going to try and 
do better. I hope that this committee will use its resources to help 
support all public schools, both charter and non-charter, to do better 
by their children.
    Our focus today is on the investments made in the D.C. Foster Care 
system. I would like to thank Chairman DeWine for his ongoing 
leadership on issues such as these. In our first year on D.C. as 
chairman and ranking member we worked together to pass the Family Court 
Act which created a new standard for how children and their families 
are to be treated in the courts--one family one judge. The courts have 
implemented this standard, hired new staff and created a separate 
family-friendly space in the courthouse in order to better serve the 
most vulnerable population. I want to recognize the strong leadership 
of Chief Judge Rufus King and the tremendous dedication of his Family 
Court Chief Judge Lee Satterfield and deputy Judge Anita Josey-Herring; 
thank you for being here today.
    We have shepherded the Child and Family Services Agency in their 
transition from receivership to improving services and outcomes for 
children. CFSA was put under a court-ordered Receivership in 1995, as a 
result of findings by the court in a 1991 civil action brought on 
behalf of LaShawn A. and other children in the foster care system. In 
2001 CFSA became a D.C. agency and has been working to meet the goals 
of the Modified Final Order, local and Federal mandates, primarily the 
Adoption and Safe Families Act. I am pleased to see such remarkable 
progress in establishing a management structure to implement the 
specific reforms necessary; I look forward to hearing more today.
    What made the Adoption and Safe Families Act so historic had little 
to do with the programs it created or the funding it provide. In 1997, 
for the first time, we as a Congress acknowledged that above all 
things; children need permanent, safe, and loving homes. We dedicated 
ourselves and the systems we help fund to putting the well being of 
children ahead of all other considerations. This change of mind has 
resulted in 56,000 children going from the halls of the system into the 
arms of a loving parent.
    By most accounts, this law was a success and yet, there are still 
barriers that stand in the way of children finding homes. The same can 
be said about the District. In March 2001, Senator DeWine and I held 
our very first hearing and many of you or your predecessors were here 
with us. At that time Judith Meltzer, the Court Monitor of the 
Receivership, who joins us again today, outlined four broad categories 
of issues the system faces: the lack of a clearly defined child welfare 
policy by the city; inadequate system capacity, options, and supports 
for children and families; fiscal insufficiency in several of the 
agencies involved in child welfare activities; and the failure of 
multiple agencies to work together to support children and families.
    Four years later we are here to revisit these issues. Highlights of 
improvements are: the number of young children in congregate care 
longer than 30 days has been reduced from 99 young children in 2001 to 
5 young children as of the end of 2004. Adoptions are increasing every 
year, from 273 in 2001 to 384 in 2004. However, there remain some 
serious areas in which CFSA must improve in order to be in compliance 
with Federal laws and the LaShawn order.
    This committee has always encouraged collaboration among various 
agencies in the city which provide services to children. While I 
understand there are improvements in information sharing between the 
Public Schools and CFSA, I remain very concerned with how well children 
under the care of CFSA are performing in school. We need to be sure 
that the people in the field understand that one of the areas they 
should be gauging a child's success and well being in is education. I 
have often thought that a residential school, such as the SEED School 
in D.C. would offer an opportunity for a safe home paired with a 
rigorous and supportive educational environment. I would be interested 
to hear the witnesses' thoughts on the educational outcomes for 
children in foster care and what some immediate strategies for 
improvement are.
    The city is still not addressing the great needs of 43 percent of 
children in out-of-home foster care--those who are age 14 older. These 
are the children who could ``age out'' in a matter of months or short 
years and will be lost to the involvement of these committed 
individuals and the services their agencies can bring to bear. I urge 
CFSA and the Department of Mental Health to focus quickly and 
creatively on older children before it is too late.
    My final point relates to two issues which the court and CFSA must 
work closely on. The first is the backlog of filing Termination of 
Parental Rights (TPR); I understand the D.C. Attorney General and CFSA 
undertook a review and determined 453 children need goal changes or 
TPRs. The Adoption and Safe Families Act requires that if child has 
been in care 15 of the last 22 months the court must initiate TPR 
proceedings. I would like to hear what specific action CFSA will take 
to clear this backlog. Second, I understand the D.C. Council changed 
the requirement for the court to hold an initial hearing from 24 hours 
to 72 hours. I can see this may alleviate the court schedule and allow 
for CFSA to conduct early intervention. However, I would like to know 
what services are being provided to children in care during this time? 
The first few hours and days when a child is removed from the home are 
critical.
    We are so grateful that there are dedicated individuals working to 
provide safe and permanent homes to children in the District of 
Columbia--thank you for taking the time to be here today. I look 
forward to your testimony and our continued partnership to improve the 
lives of children in care and those we successfully help into a 
permanent safe home.

  BASIC FACTS ABOUT THE DISTRICT'S CHILD WELFARE SYSTEM AS OF 12/31/04
------------------------------------------------------------------------
                                                              Number
------------------------------------------------------------------------
Total Number of Children (in Foster Care plus Under                5,800
 Supervision)...........................................
Number of Children in Foster Care.......................       \1\ 2,633
Number of In-home family cases under Protective                \2\ 3,167
 Supervision............................................
Demographic Profile of Children in Foster Care:
    Female (percent)....................................              49
    Male (percent)......................................              51
    African American (percent)..........................              94
Age: \3\
    Under 1 year (percent)..............................               5
    Age 2-3 (percent)...................................               7
    Age 4-5 (percent)...................................               5
    Age 6-13 (percent)..................................              41
    Age 14-21 (percent).................................              43
Entries and Exits in Foster Care (January 2004 to
 December 2004):
    Number of children in Foster Care as of 2004........           2,941
                                                         ===============
    Entries:
        New Entries.....................................             694
        Re-entries......................................             186
                                                         ---------------
          Total Entries.................................             880
                                                         ===============
    Exits:
        Adoption........................................             383
        Guardianship....................................             268
        Living with relatives...........................             135
        Aging Out (Emancipation)........................             187
        Reunification...................................             287
        Placement/Custody by Other District Agency......              19
        Fatality........................................               8
        Other...........................................              12
                                                         ---------------
          Total Exits...................................           1,299
                                                         ===============
          Number in children in Foster Care (on 12/31/             2,633
           2004)........................................
          Percent change (percent)......................           -10.5
------------------------------------------------------------------------
\1\ Includes 1,857 children where CFSA is primary case manager and 776
  children where private agency workers are primary case managers (via
  CFSA contract). Includes 556 children in kinship foster homes; 1,507
  children in non-kinship foster homes; 184 children in group homes; 196
  children in independent living programs; 152 children in residential
  treatment and 38 children in other placements ( e.g. juvenile
  corrections, substance abuse treatment etc.).
\2\ 3,167 children are under supervision in 1,541 families.
\3\ Adds up to 101 percent due to rounding.

SOURCE: CFSA FACES.
Note.--CFSA reports that discrepancy of 111 children between entrances
  and exits due to in-process placements and newly processed placement
  changes.

               PREPARED STATEMENT OF SENATOR THAD COCHRAN

    Senator DeWine. That's all good information the 
subcommittee would like. Thank you very much. Before we start, 
I would like to insert the statement of Senator Cochran into 
the record.
    [The statement follows:]

               Prepared Statement of Senator Thad Cochran

    Mr. Chairman, I am pleased you are having this hearing, and 
I look forward to working with the committee and the District 
of Columbia on issues of importance to our Nation's capital.
    I want to also thank Senator DeWine for his leadership as 
chairman of this subcommittee. It is my hope that this panel 
will give us guidance in making informed decisions regarding 
the quality of life of the children placed in the District's 
foster care system.

    Senator DeWine. Let me introduce, very quickly, our panel.
    Ms. Brenda Donald Walker is a Director with the District of 
Columbia's Child and Family Services Agency. We welcome you. 
The Honorable Lee Satterfield is the presiding Judge of the 
D.C. Family Court. Judge, thank you very much for joining us. 
We appreciate it very much. Judith Meltzer is the Court-
appointed monitor for the Child and Family Services Agency. Ms. 
Marilyn Egerton is the Deputy Director of the Foster and 
Adoptive Family Advocacy Center. And Ms. Martha Knisley is the 
Director of the District of Columbia's Department of Mental 
Health.
    Let me take an extra moment here to point out, Ms. Knisley 
is a former Buckeye. She spent 21 years as a Deputy Director 
and then Director of the Ohio Department of Mental Health. Many 
of her family live in southern Ohio, and she is also an alumnus 
of the Ohio State University.
    And so, we thank all of you for joining us.
    Senator Landrieu. Bragging, bragging, bragging.
    Senator DeWine. Well, we have to get that in. I'm sure 
Louisiana will be represented here shortly. So Ms. Walker, 
would you like to start?

STATEMENT OF BRENDA DONALD WALKER, DIRECTOR, CHILD AND 
            FAMILY SERVICES AGENCY, DISTRICT OF 
            COLUMBIA
    Ms. Walker. Thank you. Good afternoon, Senators DeWine and 
Landrieu.
    I am Brenda Donald Walker, Director of the D.C. Child and 
Family Services Agency. Thank you for your interest in child 
welfare in the Nation's Capital and for the opportunity to 
highlight our progress.
    When CFSA, our agency, appeared before this subcommittee 2 
years ago, I was then Chief of Staff to CFSA's former Director, 
Olivia Golden. Dr. Golden left CFSA in April 2004, and Mayor 
Anthony Williams appointed me to build on the foundation laid 
in the 3 years post-receivership. All of us wanted a smooth 
leadership transition that would preserve the fast pace of 
reform, and we made that happen.
    Child welfare in the District has changed in the past 2 
years. Abused and neglected children and troubled families in 
the District have never had a stronger safety net than they do 
today. But are we there yet? No.
    Our court-ordered implementation plan approved in May 2003 
allows nearly 4 years to achieve rigorous performance 
benchmarks. We are now at the halfway point, and we'll need 
every moment of the remaining time to get totally there.
    Two years ago, we had 8,325 children on our caseload. 
Today, that number has dropped to 5,791, a 30-percent decline. 
At the end of last month, 54 percent were at home with their 
parents, and 46 percent were in out-of-home placements.
    Children we serve are overwhelmingly African-American and 
evenly divided between males and females. The largest 
percentage is older children, ages 12 to 17, followed closely 
by a sizeable group of 6 to 11 year olds. Seventy-five percent 
of our foster care children are in family settings, with about 
20 percent in kinship care.
    To paint an overall picture of CFSA's progress to date, my 
written testimony highlights just nine performance indicators 
representative of the hundreds we track. CFSA has been 
successful on three of the nine. We're making steady 
incremental progress on four. And we're still struggling to 
improve and maintain performance on two. Thus, you have a bell 
curve that illustrates our current status quite accurately--
outstanding achievement in some key areas; adoptions; almost no 
young children in congregate care; measurable progress in many 
areas, such as case plans, visits to children in foster care, 
and licensing of foster homes; and yet several problems 
resulting in insufficient progress in a few important areas, 
such as investigations and in-home visits.
    As an example, in fiscal year 2004 we moved an all-time 
high of 919 children out of foster care and into permanent 
homes through reunification, guardianship, or adoption, and we 
currently only have four children under six in congregate care. 
At the same time, we continue to have a persistent backlog of 
investigations not completed within 30 days, and we are not 
visiting our in-home children as frequently as we should. Yet 
we are light-years ahead of where we have been, and we are 
still moving in the right direction.
    In that regard, CFSA has put to good use the fiscal year 
2004 special appropriation of $9 million for early 
intervention, flexible funds for kinship licensing, student 
loan repayments for social workers, and technology 
improvements. The core of our early intervention strategy is 
the new family team meeting (FTM) initiative, which gives 
families a strong voice in making decisions.
    In January, we began conducting FTMs before all removals. 
We have held 47 family team meetings involving 85 children so 
far. Other jurisdictions using FTMs have experienced fewer 
children entering care, and significant reductions in placement 
disruptions. We anticipate similar outcomes in the District. In 
April, we will use family team meetings for all placement 
changes--or prior to any placement changes.
    Flexible funds facilitate licensing family members willing 
to care for children who otherwise would go into traditional 
foster homes or congregate care. Between March 2004 and the end 
of the fiscal year, we spent approximately $234,000 to support 
99 families in meeting licensing standards.
    Within the 7 months available to plan and launch the 
student loan repayment program, 147, or about half, of our 
social workers applied for a total obligation of a little over 
$2.2 million out of the $3 million allocation. While it will be 
at least 2 years before we know whether this is an effective 
retention strategy, we do believe it will increase social 
workers' tenure in the District.
    Finally, CFSA is using $3 million to convert our FACES 
automated management information system to a Web-based 
platform, and we've just completed that first stage. In 
addition, we are replacing social workers' personal computers 
with laptops so that they can, as you mentioned, Senator 
DeWine, be able to enter and retrieve client information in the 
field.
    Thanks, in part, to your support, CFSA is moving toward 
becoming a model for the Nation. At the same time, we have a 
great deal of work still ahead. I am especially concerned about 
the large number of older youths growing up in the District in 
foster care, a legacy of past failure to focus on permanence. 
CFSA must redress that failure and give these young people the 
same quality start in life we give our own children. We must 
also do more to prevent younger children from growing up in the 
system.
    Of CFSA's $235 million budget, only about 5 percent, about 
$12 million, is for early intervention and prevention services. 
We need more flexibility to shift resources to address critical 
front-end and back-end issues, such as lack of affordable 
housing that undermines family efforts to stay together or 
reunite, post-adoption services, after-care programs for youth, 
for young adults who are aging out of foster care, including 
affordable housing and other support.
    We hope you will be interested in discussing potential next 
steps in building the safety net for the District's abused and 
neglected children.

                           PREPARED STATEMENT

    Thank you so much for your interest in these children and 
families, and for your support.
    Senator DeWine. Good. Very concise, very good. Thank you 
very much.
    [The statement follows:]

               Prepared Statement of Brenda Donald Walker

    Good afternoon, Senator DeWine, Senator Landrieu, and members of 
the District of Columbia Subcommittee of the Senate Appropriations 
Committee. I am Brenda Donald Walker, director of the D.C. Child and 
Family Services Agency (CFSA). Thank you for this opportunity to report 
on the progress of child welfare reform in the Nation's Capital. In 
addition, I am eager to tell you about initiatives you funded via the 
special Congressional appropriation, for which we are grateful.
    It was exactly two years ago that CFSA last appeared before this 
subcommittee. At that time, I was chief of staff to CFSA's former 
director Olivia Golden. Dr. Golden left CFSA in April 2004, and upon 
her recommendation, Mayor Anthony Williams appointed me to build on the 
foundation she established in the three years post-receivership. All of 
us wanted a leadership transition that would preserve the fast pace of 
our reform agenda. In practice, we had the least disruptive leadership 
transition in agency history and more than maintained the rapid 
evolution underway at CFSA.
Performance Highlights
    Public child protection in the District has changed significantly 
since CFSA testified here in March 2003. To anticipate some overall 
questions you may have * * *. Have we passed major milestones in 
solidifying our foundation and improving performance in key areas? Yes. 
Are we seeing evidence of better outcomes for more children and 
families? Yes. Are we demonstrating that the District Government can 
deliver critical services after six years of Receivership? Yes. Abused 
and neglected children and troubled families in the District have never 
had a stronger safety net than they do today. But are we ``there yet?'' 
No. Our court-ordered Final Implementation Plan approved in May 2003, 
allows nearly four years to achieve rigorous performance standards. We 
are now almost at the halfway point and will need every moment of the 
remaining time--as well as continued hard work, political will, and 
community support--to ``get there.''
    As numerous other cities have learned from experience, urban child 
welfare reform is a long, challenging progress. The only way to succeed 
is to use each accomplishment as a platform for tackling the many 
critical requirements still ahead.
Children and Families
    I want to provide a brief overview of how things stand at CFSA 
today, beginning with the most important element: the children we 
serve. Two years ago, we had 8,325 children on our caseload. Today, 
that number has dropped to 5,791 children--a 30 percent decline. We 
have gotten much better at achieving permanence for children, as I'll 
explain in a moment, and because caseworkers are no longer overwhelmed, 
they close cases instead of allowing them to languish.

                          CHILDREN CFSA SERVES
------------------------------------------------------------------------
                                       March 31, 2003     February 28,
                                     ------------------       2005
                                                       -----------------
                                       Number  Percent   Number  Percent
------------------------------------------------------------------------
In home:
    Court...........................    1,330       26      785       25
    No court........................    3,700       74    2,328       75
                                     -----------------------------------
      Total in-home.................    5,030       60    3,113       54
                                     ===================================
Out of home:
    Court...........................    3,262       99    2,607       97
    No court........................       33        1       71        3
                                     -----------------------------------
      Toal out of home..............    3,295       40    2,678       46
                                     ===================================
      Total children................    8,325  .......    5,791  .......
                                     ===================================
Goals of children in out-of-home
 placement:
    Reunification...................      614       19      513       19
    Adoption........................    1,289       39      770       29
    Guardianship....................      124        4      445       17
    Ind. Living, APPLA..............    1,268       38      800       30
    Other...........................  .......  .......      150        5
                                     -----------------------------------
      Total.........................    3,295  .......    2,678  .......
------------------------------------------------------------------------
Source: CFSA FACES.

    The children we serve continue to be overwhelmingly African-
American and evenly divided between males and females. The largest 
percentage is older children, ages 12 to 17, followed closely by a 
sizeable group of six- to 11-year-olds. At the end of last month, 3,113 
children--or 54 percent--were at home with their parents, and 2,678--or 
46 percent--were in out-of-home placement.
    At the same time, a growing proportion of our caseload is composed 
of clients with serious, difficult, and expensive issues--such as 
children with multiple disabilities. We are also serving many large 
families struggling with a host of challenges. In December 2003, our 
first needs assessment study (which we will now conduct every two 
years) showed that the typical CFSA client family is a single mother, 
average age 31, with four children under age 18 in the home. Among 
adult clients in the sample: 96 percent were unmarried; 73 percent were 
unemployed outside the home; 52 percent had not graduated from high 
school; and fully 25 percent were homeless or living in a shelter 
before becoming involved with CFSA.
    Child protective cases in the District have always been complex, 
and that is truer today than ever before.

Sample Performance Indicators
    With an overall caseload decline of nearly one-third and a larger 
cadre of case-carrying social workers, CFSA has made significant 
strides in meeting the long-standing challenge of reducing individual 
caseloads to manageable levels. Based on standards in the LaShawn 
order, caseloads may not exceed 1:12 in Investigations, 1:17 for 
families, 1:20 for children in foster care, and 1:12 for children with 
the goal of adoption. Today, average caseloads at CFSA are currently 
1:15 in Investigations, 1:17 for children in families and in foster 
care, and 1:10 for children with the goal of adoption.
    To paint an overall picture of where CFSA stands today, I want to 
highlight nine performance indicators representative of the hundreds we 
track regularly. Our court-ordered Final Implementation Plan mandates 
these performance measures, but that's not the point. The point is that 
meeting these standards is critical to providing the diligent, quality 
service abused and neglected children need and deserve. Of the nine 
performance indicators I'll discuss briefly, CFSA has been very 
successful on three; is making steady, incremental progress on four; 
and is struggling to improve and maintain performance on two. Thus, you 
have a Bell curve that illustrates our current status quite accurately: 
Outstanding achievement in some key areas; measurable progress in many 
areas; and stubborn problems resulting in insufficient progress in a 
few areas.
    Strong Performance.--At the front end of the Bell curve, strong 
performance at CFSA stands out in: reducing the number of young 
children in congregate care, conducting timely Administrative Reviews, 
and increasing adoptions. These important indictors cut to the heart of 
what children need to thrive--namely, nurturing family settings and 
stability.
    In 2001, when the Court Monitor prepared baseline data for CFSA, we 
had 99 children under age six who had been in congregate care for more 
than 30 days. Today, we have just five children under age six who have 
been in congregate care for 30 days. The District has made a huge leap 
forward in placing younger children in the family settings that do so 
much more for their healthy emotional development.
    Semi-annual Administrative Reviews ensure movement of children 
toward permanence with all due speed. CFSA has more than doubled the 
percentage of cases with current Administrative Reviews--from 43 
percent in 2001 to 93 percent at the end of December. Each month, we 
move closer to the goal of 100 percent and expect to meet it within the 
next few months. Our in-house Quality Improvement Administration 
schedules and facilitates these reviews, evaluates the status of case 
plans in advance, and follows up with social workers to ensure prompt 
attention to action items.
    Deliberate focus on permanence has led to a large increase in 
adoptions. Family Court finalized adoption of 273 children in 2001. In 
2004, adoptions jumped 41 percent to a total of 384. Add the 273 
children who achieved guardianship and 262 reunified with their 
families, and the result is 919 children who left foster care for 
permanent homes last year. Speedier permanence for more children 
accounts for a significant portion of the decline in our overall 
caseload, as it should.
    Steady Progress.--At the top of the Bell curve are numerous areas 
in which CFSA is making steady, incremental progress. Four stand out: 
Developing case plans for foster care cases; developing case plans for 
family and kinship cases; making monthly visits to children in foster 
care; and licensing foster homes.
    A case plan is the critical roadmap to safety; services; and 
permanence through reunification, guardianship, or adoption. In 2001, 
only 25 percent of CFSA foster care cases had case plans. By the end of 
December 2004, that number had jumped to 85 percent--still short of our 
95 percent goal but closing in rapidly. For family and kinship cases, 
only a shameful 9 percent had case plans in 2001. Today, 69 percent 
have case plans--also short of the goal but a seven-fold increase 
headed in the right direction.
    Regular visits by social workers to monitor foster children are one 
of the strongest safety features in public child protection. From an 
abysmal two percent of foster children receiving a monthly visit in 
2001, 78 percent had a monthly visit in December 2004. That's a 
dramatic 39-fold increase. We are continuing to push to meet the goal 
of 90 percent.
    Licensing standards for foster homes are an important safety and 
quality measure for children. CFSA has worked diligently to achieve 
licensing despite barriers, such as long-time placement of children 
with kin before the District required licensing. In some cases, long-
standing court orders for monthly foster-care payments to unlicensed 
relatives exacerbate procrastination in fulfilling licensing 
requirements. Nonetheless, CFSA has more than doubled the percentage of 
children placed in licensed foster homes--from about a third in 2001 to 
just over two-thirds today. We move closer to the goal of 95 percent 
each week.
    Corrective Action.--Finally, at the end of the Bell curve, CFSA has 
some areas undergoing strenuous corrective action. In June 2004, our 
semi-annual Quality Assurance Report listed 11 methods CFSA is using to 
drive performance improvement, such as intensive, short-term work 
groups; training; staffing up; developing tools to facilitate 
investigative and case decision making; and input from outside experts. 
Over the past eight months, we have initiated several additional 
approaches.
    Both Mayor Anthony Williams and I are serious about making CFSA a 
first-class child welfare agency that consistently performs well in 
every key area. Regular management reports keep me fully aware of where 
performance is lagging, and I have put managers on notice that 
turnarounds in these areas are their highest priority.
    From an unacceptable backlog of 807 child abuse investigations not 
completed within 30 days in 2001, CFSA had reduced the current backlog 
by 61 percent to 311 at the end of 2004. This is still too high. Late 
last summer, I hired an experienced manager to head Intake & 
Investigations. She is now working to streamline and improve an 
essential function that had never been properly organized since CFSA 
assumed responsibility for abuse as well as neglect investigations. I 
have devoted extensive resources and other support to this critical 
gateway to child protection and will do whatever else is necessary to 
bring investigative performance up to standards.
    Regular social worker visits to monitor children's safety and well 
being are the essence of child welfare. I am deeply concerned that 
reducing caseloads to more manageable levels has not yet translated 
into regular visits to children living at home. Make no mistake: More 
children at home are now receiving more regular visits from CFSA social 
workers than ever before. When the Court Monitor established a baseline 
for this measure in October 2002, only 11 percent of children at home 
received a monthly visit. In December 2004, 68 percent received a 
monthly visit. While that's a six-fold increase, it's not enough. CFSA 
Program Operations has identified barriers to visits and is working to 
overcome them. I have made continued, diligent focus on this essential 
element of casework one of the agency's top priorities.

Update on Fiscal Year 2004 Special Appropriation
    Of the $14 million special appropriation you generously awarded to 
the District in fiscal year 2004, CFSA received $9 million for early 
intervention, flexible funds for kinship licensing, student loan 
repayments for social workers, and technology improvements. When 
Congress approved the fiscal year 2004 appropriation in February 2004, 
we immediately began developing and succeeded in launching several new 
initiatives.

            Early Intervention
    The core of our early intervention strategy is the new Family Team 
Meeting (FTM) initiative, which ensures families have a strong voice in 
decisions about removing a children or changing their placement. In 
fiscal year 2004, we executed a contract for FTM training from noted 
national experts, hired the FTM team, and established the flexible fund 
component of the program.
    The program began as a pilot from September through December for 
selected high-risk cases. We began conducting FTMs before all removals 
in January 2005, and beginning next month, we will hold an FTM before 
all placement changes. While it is too early to draw conclusions about 
the long-term effectiveness of FTMs in the District, we have developed 
a tracking system to follow the progress of FTM participants. For 
example, we know that of the 11 children whose families participated in 
Family Team Meetings last September, two remained at home, four were 
returned to their father, and five were placed with relatives. So far 
in 2005, we have held 47 FTMs for 85 children. Other jurisdictions that 
have used Family Team Meetings for some time have typically experienced 
fewer children entering care and significant reductions in placement 
disruptions. We anticipate similar outcomes for the children and 
families we serve.

            Emergency Support Fund
    Flexible funds facilitate licensing of family members willing to 
care for children who would otherwise go into traditional foster homes 
or congregate care. We are using flexible funds for home repairs or 
renovations, furniture, medical exams, and lead paint removal--all to 
help relatives meet foster home licensing standards.
    We also use the funds to underwrite room-and-board payments to 
kinship homes with short-term temporary licenses, which are ineligible 
for federal reimbursement. Between March 2004 and the end of the fiscal 
year, we spent approximately $234,000 from the flexible fund to support 
about 99 families in meeting licensing standards.

            Social Worker Student Loan Repayment
    Nearly every child welfare agency in the nation struggles with the 
challenge of reducing high social worker turnover. Repaying all or a 
portion of student loans is an experiment to determine whether this 
incentive will keep social workers on the job longer.
    Under our demonstration project, case-carrying social workers who 
have worked for CFSA or one of our contracted providers for at least 
two years and who agree to stay an additional two years were eligible 
for generous loan repayments between $10,000 and $18,000. Within the 
seven months available to plan and launch the program, 147 social 
workers applied for a total obligation of $2.2 million out of the $3 
million allocation. We also budgeted $250,000 for administration, 
documentation, and evaluation. While it will be at least two years 
before we know whether this is an effective retention strategy, we 
believe it will encourage qualified and motivated social workers to 
extend their tenure in the District.

            Technology Improvement
    Three million dollars allocated to upgrade technology for social 
workers has two primary purposes: conversion of our FACES automated 
management information system from a server- to a web-based platform 
and purchase of laptop computers so social workers can access FACES in 
the field. In fiscal year 2004, we awarded contracts to establish the 
web-based system and to purchase almost 250 laptop computers. We are 
now phasing in FACES.net over 18 months.
    Even at this early stage, we are already seeing results. Under a 
portion of the project known as the provider web, all our contracted 
child placing agencies now have real-time access to FACES. This allows 
them to update placement changes promptly, which, in turn, helps CFSA 
resolve long-standing payment challenges. At the end of this month, 
CFSA Information Systems will begin replacing social worker personal 
computers with laptops. By the end of 2005, social workers will be able 
to enter and retrieve client information in the field. Among many 
benefits, we hope this will improve CFSA's ability to claim federal 
revenue. We are set to forge ahead in that arena since this past 
January, CFSA's FACES system joined an elite group of only eight other 
``states'' that have achieved State-Administered Child Welfare 
Information System--or SACWIS--approval from the U.S. Department of 
Health and Human Services.

            Mental Health Services
    Director Martha Knisley of the District's Department of Mental 
Health is here today to report on use of their special appropriation to 
develop new mental health services for foster children. Without 
stealing her thunder, I will just say we have long needed the expanded 
range of mental health treatment options DMH is now able to provide. 
Family instability, abuse and neglect, removal from home, multiple 
placements, and other factors too often leave some child victims with 
serious emotional and behavioral issues. They deserve expert, caring 
treatment, and we're delighted to have these new, high-quality services 
available.

Looking Ahead
    Thanks in large part to your support and commitment to improving 
child protection in the District, we are moving toward becoming a model 
for the nation. At the same time, we have great deal of work still 
ahead. I am especially concerned about the large number of older youth 
growing up in care in the District, a sad legacy from past failure to 
focus on permanence. Over the next five years or more, CFSA must do 
everything possible to redress that failure and give these young people 
the same quality start in life we give our own birth children. In 
addition, we must do more to prevent younger children in our care from 
growing up in the system.
    Of CFSA's $235 million budget, we can use only five percent (or 
approximately $12 million) for early intervention and preventive 
services. We really need more flexibility to shift resources to address 
critical front- and back-end issues such as: The lack of affordable 
housing that too often undermines family efforts to stay together or 
reunite; post-adoption services, especially for families who adopt 
older youth; and after-care programs for young adults who have aged out 
of foster care, including affordable housing and other supports.
    We hope you will be interested in discussing potential next steps 
in building the viable safety net for the District's abused and 
neglected children and troubled families. As always, thank you for your 
caring interest in these children and families and for your support.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


STATEMENT OF MARTHA KNISLEY, DIRECTOR, DEPARTMENT OF 
            MENTAL HEALTH, DISTRICT OF COLUMBIA
    Senator DeWine. Ms. Knisley.
    Ms. Knisley. Good afternoon, Senator DeWine and 
subcommittee staff.
    I am Martha Knisley, Director of the D.C. Department of 
Mental Health. Thank you for this opportunity to share with you 
the status of the service delivery, mental health services 
delivery to the children, youth, and families in the D.C. 
foster care and child welfare system.
    It's always good to see a fellow Southern Ohioan. I think 
the last time I was, I said that to you, and not very many 
people, outside of you and I, would understand what that means.
    Senator DeWine. We understand.
    Ms. Knisley. On behalf of all of our employees, the 
District children and youth and families, our heartfelt 
appreciation for your vision and your support to ensure 
evidenced-base mental health services are now becoming 
available to children and their families with the greatest 
needs.
    Mayor Anthony Williams has devoted himself to a long-range 
effort to improve services to children in foster care, starting 
with his commitment to end the receiverships for both of our 
departments, simultaneously. He reasoned that the faster our 
two agencies came out of receivership, the faster we would be 
able to deliver necessary services to begin helping people, and 
especially children, improve their lives. He did this, because 
he, personally, wanted to take the responsibility for these two 
fragile groups of individuals. At his urging, our two agencies 
began meeting to develop a long-term plan wherein the 
Department would begin to take--Department of Mental Health--
would begin to take responsibility for providing and arranging 
for mental health services for children, under the supervision 
of the Child and Family Services Agency. Because of his 
commitment and the joint efforts with the Child and Family 
Services Agency, we began to carve out both a long-term plan 
that addresses the areas of most critical needs for foster 
children, their parents, and children's birth parents, where 
appropriate.
    The $3.9 million provided to the Department of Mental 
Health from this subcommittee in 2004, and $1.25 million for 
2005, has spurred this development of an array of services to 
meet those urgent needs that would have not happened this fast 
without your remarkable commitment to the Nation's Capital and 
with Mayor Williams' foresight.
    When we speak of the fragility of children's lives, 
especially those in the child welfare system, and also the 
juvenile justice system, where we're also beginning to work 
furiously as part of our mission, we are talking about 
disruption of family, frequent change of residence, and the 
resulting emotional trauma. Our role, as the Department of 
Mental Health, is to help build, or rebuild, the resilience 
within these children, youth, and families so they can go 
forward.
    Studies are very clear, the mental health status of 
children involved in child welfare indicates that they're 3 to 
10 times more likely to have mental health problems than 
children not in the child welfare system. The trauma of 
separation, multiple placements, and transitions often 
exacerbates children's mental health program--problems.
    The resources provided by this subcommittee have allowed us 
to take aggressive action to strengthen accessibility, 
timeliness, and quality of mental health services. We're 
significantly expanding our capacity for screening and 
assessments, as you've requested, building a cadre of providers 
to provide timely, appropriate, and cutting-edge mental health 
services, and to expand the capacity of our agencies to 
increase their knowledge and expertise in a wide variety of--
array of service interventions.
    We had two primary goals: reduce the backlog of court-
ordered evaluations, and to begin to build an infrastructure 
for evidence-based mental health services, timely services for 
foster care children.
    We began immediately, contracting with 10 new forensic 
psychologists and three new board-certified children's 
psychiatrists, to--for our evaluations. We've significantly 
reduced the wait time for psychiatric evaluations, from 3 
months to 3 weeks, and psychological examinations from 2 months 
to less than 3 weeks--actually, at one point in time, down to 1 
week. It's beginning to creep back up some. And, in part, 
that's because we've had a 44 percent increase in the number of 
requests for evaluations in 2004; and already this year, a 41 
percent increase. So we need to place more individuals, and we 
are doing that, to do the psychological and psychiatric 
examinations.
    In addition to that, this gave us an opportunity to 
establish a clinical rotation with Children's Hospital to train 
child psychiatrists in forensic child psychiatry. It is--if we 
are going to do this, we're going to have to have the 
expertise.
    We also have been contracted for three new major cutting-
edge services: mobile response and stabilization services, 
multi-systemic therapy, and intensive in-home and community-
based services. With multi-systemic therapy, this year we are 
going to be able to serve 96 youths in this cutting-edge 
service, and already we've taken 27 youths into the program. 
And the intensive community-based services, again, we began in 
January, we've already taken 36 youths. And I just talked to 
our mobile crisis team, who are here with us today, and they 
had five calls for mobile crisis last week.
    I will not finish my testimony, but submit it in writing, 
but one of the projects that we're doing this summer is 
inviting one of the national leading groups in trauma to help 
support our clinicians in what they call ``cognitive behavioral 
therapy,'' so that we can increase our capacity to serve 
children and youth.
    I'd like to end by talking about two children for just a 
second, a 14-year-old girl, who was referred to our MST team 
last week because of removal from her home. We began--our team 
began working with her mother on implementing consistent 
structure and supervision at home, and increasing communication 
between home and school. She hasn't missed a day of school, she 
hasn't gotten into any fights, and she hasn't run away.
    In addition, a 12-year-old youngster who's in and out of 
State residential treatment facilities. He's been there for 4 
years. He's coming home at the end of March.

                           PREPARED STATEMENT

    That's what it's all about. We thank you, again, very, very 
much. Our three new providers are here with me today, and I 
will be submitting their testimony for the record, as well.
    Senator DeWine. Ms. Knisley, thank you very much.
    [The statement follows:]

                Prepared Statement of Martha B. Knisley

                              INTRODUCTION

    Good afternoon, Senator DeWine, members of the District of Columbia 
Subcommittee and staff. I am Martha B. Knisley, Director of the D.C. 
Department of Mental Health. Thank you for this opportunity to share 
with you the status of the service delivery to children, youth and 
families in the D.C. foster care/child welfare system.
    On behalf of all DMH employees, and District children, youth and 
families, our heartfelt appreciation for your vision and support to 
ensure evidence-based mental health services now are available to those 
with the greatest need.
    Mayor Anthony Williams has devoted himself to a long-range effort 
to improve services to children in foster care, starting with his 
commitment to end the Department of Mental Health and Child and Family 
Services Agency receiverships that were in place when he took office.
    He reasoned that the faster our two agencies came out of 
receivership, the faster we would be able to deliver necessary services 
to begin helping people improve their lives.
    At Mayor Williams' urging, our two agencies began meeting to 
develop a long-term plan wherein the DMH would begin to take 
responsibility for providing and arranging for mental health services 
for children under the supervision of the CFSA.
    Because of this commitment and our joint efforts to identify how 
this cooperation could work to the benefit of children, youth and 
foster families, CFSA, the LaShawn Court Monitor and advocates 
identified mental health services as key areas for improvements in 
their deliberations with you and District leaders.
    Hence, in the summer of 2003, we began meeting to carve out both a 
long-term plan that addresses the areas of most critical need for 
foster children, their foster parents and the children's birth parents, 
where appropriate.
    The $3.9 million provided in fiscal year 2004, and $1.25 million in 
fiscal year 2005 have spurred development of an array of services to 
meet those urgent needs that would not have happened this fast without 
your remarkable commitment to the Nation's Capital and Mayor Williams' 
foresight.

                      BUILDING THE SYSTEM OF CARE

    The District is committed to building a comprehensive, state-of-
the-art system of care for mental health service that meets the needs 
of the children, youth, and families of the District.
    When we speak of the fragility of children's lives, especially 
those in the child welfare system, the foster care system or the 
juvenile justice system, we are talking about disruption of family, 
frequent change of residence and the resulting emotional trauma. Our 
role is to build resilience within these children, youth and families 
so they can go forward.
    Studies profiling the mental health status of children involved in 
child welfare indicate that children in foster care are three to ten 
times more likely to have mental health problems than children on 
welfare. The trauma of separation, multiple placements, and transitions 
once children are involved in the foster care system often exacerbate 
mental health problems in children and families.
    These issues are frequently compounded by a lack of appropriate, 
quality mental health services, by long waits for assessment and 
treatment, and by a system that has not been organized or funded to 
meet the particular needs of children, youth, and families that are 
experiencing a high level of stress. These factors further jeopardize 
children's placement in permanent and loving homes.
    The resources provided by the Committee have allowed us to take 
aggressive action to strengthen the accessibility, timeliness, and 
quality of mental health services to children and families to:
  --Significantly expand our capacity for screening and assessments for 
        children in foster care.
  --Build an array of providers with the ability to provide timely, 
        appropriate and even cutting edge mental health services to 
        children in foster care, focusing on services that have been 
        shown by research evidence to be successful.
  --Significantly expand the treatment capacity of agencies and 
        clinicians by increasing their knowledge and expertise in a 
        wide array of service interventions.

                     HOW DMH IS MAKING A DIFFERENCE

    Many children and youth in foster care are living with the 
emotional distress of uncertainty, violence and lack of control over 
their own lives. They are at greater risk of becoming part of the 
juvenile justice system; therefore, any delay in identifying and 
providing the mental health services and supports they need prolongs 
their suffering.
    We have two goals: (1) reduce the backlog of court-ordered 
evaluations of foster care children's mental health needs; and (2) 
create a new infrastructure of evidence-based mental health services to 
be available to foster care children.
    DMH moved quickly with CFSA and community partners to meet these 
goals.
    DMH immediately increased its capacity for screening and 
assessments by:
  --Contracting with 10 additional child forensic psychologists, 
        including one who is a neuro-psychologist.
  --Contracting with three additional Board Certified Child 
        Psychiatrists.
  --Hiring one additional social worker to assist in handling increased 
        neglect referrals, serves as the Mayor's Liaison Officer to the 
        Family Court, and works with juvenile and domestic relations 
        referrals.
    The results included:
  --Reduced wait time for psychiatric exams from three months to three 
        weeks by the end of the 2004 fiscal year. Demand has increased 
        and so has our wait time in the past two months. We will add 
        resources to the extent possible to reduce the wait again to 
        three weeks or less.
  --Reduced wait time for psychological exams from two months to less 
        than three weeks, but again we are experiencing a higher demand 
        and will need to add resources to meet this need if the demand 
        continues to rise.
  --Established a supervisory clinical rotation with Children's 
        Hospital to train child psychiatrists in forensic child 
        psychiatry, with two staff serving in pending faculty 
        positions. The supervisory faculty psychiatrist also has 
        received his board certification in addiction.
  --Increased capacity to work with individuals representing diverse 
        cultures and who speak languages other than English: One 
        psychologist speaks Arabic.; two psychologists speak Spanish; 
        one psychologist speaks French; and one psychiatrist speaks 
        Spanish.
  --Meanwhile, the number of assessments conducted in fiscal year 2004 
        represents a 44 percent over fiscal year 2003 and has increased 
        by 41 percent in the first five months of fiscal year 2005 over 
        the same time period in fiscal year 2004.
    Our second goal became a reality January 24, 2005 when our three 
new services--Multi-systemic Therapy, Intensive Home- and Community-
Based Services, and Mobile Response and Stabilization Services--came on 
line.
    While it is too early to begin calculating the effects of these 
services, nevertheless, having them in place furthers our effort to 
create a comprehensive network of services. I also want to point out 
that more than 82 percent of these funds or $2.8 million has been 
allocated for direct services to children, youth and families. I will 
describe these services briefly:
    Across the country where Multi-Systemic Therapy (MST) has been 
implemented successfully, youth are half as likely to be re-arrested, 
and they have reductions in arrests for violent and substance-related 
crimes. Additionally, they have improved family relations. This service 
focuses on preventing older children and teens from entering 
residential treatment and allowing others to return from residential 
treatment to less restrictive, more family-like settings.
    These funds allow for the treatment of 96 youths, ages 10 to 17, 
with complex behavioral issues, for upward of six months. Qualified, 
experienced therapists will visit the youth at least three times per 
week in the community where they live, whether at home, in foster 
homes, or in local group homes. Therapists will also be on call around 
the clock in case of emergencies involving their clients. This service 
will focus on preventing older children and teens from entering 
residential treatment and allowing others to return from residential 
treatment to less restrictive, more family-like settings. MST has 
admitted 27 consumers and two are awaiting assessments.
    Intensive Home- and Community-Based Services (IHCBS) will allow for 
the in-home treatment of 72-90 youth and families during the first 
year. This provider already is working at maximum capacity with 36 
youth. Qualified, experienced counselors will work with children with 
serious emotional disturbance and behavioral problems in their homes 
several times per week. This service is designed to help families 
resolve serious issues and prevent removal of children from the home.
    Mobile Response and Stabilization Services (MRSS) will allow 
parents, foster and pre-adoptive parents, kinship caregivers, and group 
care providers to access emergency assistance from qualified 
professionals for children and youth, ages 5 to 21 years old, 
displaying extreme behavior but not requiring hospitalization. 
Professionals can stay on site to provide emergency response for up to 
72 hours. On a case-by-case basis, they can also develop eight-week 
stabilization plans. This service is designed to help reduce placement 
disruptions for children and teens with emotional and behavioral 
issues.
    Caregivers of children and youth involved with the District's child 
welfare system can reach this service through DMH's 24-hour Access 
HelpLine. While the capacity of these services is initially limited, 
they mark the beginning of a more comprehensive and nuanced approach to 
meeting the mental health needs of children, youth, and families within 
the local child welfare system.

                 HOW DMH IS EXPANDING CLINICAL CAPACITY

    DMH is significantly expanding the treatment capacity of agencies 
and clinicians by increasing their knowledge and expertise in a wide 
array of service interventions. The following training opportunities 
have been or are being offered:
  --The National Council for Community Behavioral Healthcare (NCCBH) 
        provided technical assistance to nine child serving agencies 
        and provided community support training to twenty-six staff.
  --The American Academy of Child and Adolescent Psychiatry provided 
        CALOCUS training to child-serving agencies working with CFSA 
        children.
  --DMH has contracted with another provider to offer another 30 hours 
        of community-support training to up to nine agencies and staff.
  --DMH has contracted with National Association of State Mental Health 
        Program Directors and National Child Trauma Stress Network to 
        assess the treatment capacity of agencies to deliver quality 
        services to youth who have experienced or who are experiencing 
        trauma.

               THE TRAUMA LEARNING COLLABORATIVE PROJECT

    DMH has allocated $228,515 of the congressional appropriation to 
support a Learning Collaborative Project focusing on the practice of 
evidence-based cognitive behavioral therapy for clinicians serving DC 
foster care children and youth.
    The major focus of the project is an in-depth training in Abuse 
Focused Cognitive Behavioral Therapy, a treatment model that has 
received support from several randomized clinical trails and has been 
adapted specifically for use with children in child protection and 
foster care systems.
    The project will be initiated this month with a baseline assessment 
that will use a combination of tools and oral interviews to identify 
current knowledge and use of evidence-based practices, current therapy 
procedures, and identify attitudes and potential barriers to adoption 
of evidence-based practices.
    Experts from the Center for Child and Family Health (CCFH) in 
Durham, North Carolina, a learning collaborative for maltreated and 
traumatized children and adolescents, will facilitate. CCFH is a 
collaborative undertaking by the University of North Carolina at Chapel 
Hill, North Carolina Central University, Duke University and Child and 
Parent Support Services, a nonprofit corporation, and has been 
designated as a community practice site in the Substance Abuse and 
Mental Health Service Administration (SAMHSA)-funded National Child 
Traumatic Stress Network, whose mission is to raise the standard of 
care and improve access to services for traumatized children, their 
families and communities throughout the United States. The National 
Association of State Mental Health Authorities (NASMHD) serves as DMH's 
primary contractor for the project. NASMHPD will provide technical 
assistance to DMH concerning system change with respect to integration 
and replication of best practices.
    Learning sessions are scheduled at the Gallaudet University Kellogg 
Conference Center April 28-29, June 9-10 and August 12, 2005. Between 
sessions clinicians will receive regular consultation via conference 
calls with the training faculty. Each clinician will receive a toolkit 
that includes a treatment manual and resources related to the practice 
of best practices in trauma treatment.
    DMH has invited 57 child and youth-serving clinicians from the 
Department of Mental Health's community system of care to participate 
in the project and clinical program administrators from Child and 
Family Services and the Department of Mental Health's School Mental 
Health Program and CINGS System of Care Project will also participate.
    The project will culminate by the close of fiscal year 2005 with a 
final report that will include an evaluation assessing program change 
(from the baseline) and recommendations for ongoing implementation of 
evidence-based practices across the DMH child and youth-serving system 
of care.

                       PROJECTING INTO THE FUTURE

    DMH is committed to sustaining the gains made thus far. We are 
creating the means for providing the three services as part of our 
Mental Health Rehabilitation Services system, which will allow the 
three aforementioned services to be reimbursed in part by Medicaid. We 
are encouraged that the services we have put in place will reduce out 
of home treatment costs and will carefully monitor outcomes overtime.
    We have two concerns however for the future. One is the level of 
need and whether the current level of resources and Medicaid 
reimbursement, which requires a 70 percent local match is sufficient to 
meet the service needs of foster care children and their families. 
Secondly we continue to see escalating requests for formal psychiatric 
and psychological assessments. We are monitoring this demand closely.
    In conclusion, Senator DeWine and Subcommittee members, I would 
like to again express my appreciation for your support. I will be happy 
to answer your questions.

STATEMENT OF HON. LEE F. SATTERFIELD, PRESIDING JUDGE, 
            FAMILY COURT, D.C. SUPERIOR COURT
    Senator DeWine. Judge, thank you very much for coming. We 
appreciate it.
    Judge Satterfield. Thank you. Good afternoon, Chairman 
DeWine and the subcommittee members and staff.
    I want to thank you for inviting me to testify at this 
hearing about the foster care in the District of Columbia. I'm 
pleased to report to you that, with the support and the 
leadership of this subcommittee and Congress and the work of 
CFSA, the Department of Mental Health, the courts, and other 
stakeholders in the District of Columbia who are interested in 
the welfare of our children, we continue to make significant 
progress in achieving permanency for our children.
    In 2004, as we will report to you in our annual report 
that's due later this month, the Family Court has increased the 
number of dispositions in cases involving abused and neglected 
children and guardianship cases and adoption cases and in 
termination of parental rights motions. What this means is that 
more children are achieving permanency in safe, loving homes in 
2004 than they were even in 2003.
    I'm going to focus my testimony on the termination of 
parental rights, because I remember being here, at a 
subcommittee meeting once before, where you expressed some 
great concerns about how we were doing in that area. So, I want 
to report to you that I believe we are making encouraging 
progress in that area.
    I'll talk briefly about the foster care initiatives and 
about the assessment center to tell you how we think that the 
money that was put into those initiatives by the Congress will 
benefit the children in the District of Columbia.
    Over the past year, there has been an increased urgency 
among CFSA, the District of Columbia Office of Attorney 
General, and the Family Court to remove, when appropriate, the 
legal barriers that are sometimes the obstacles to children's 
chances of being adopted by a loving family. The Office of 
Attorney General and CFSA are engaged in an initiative to 
increase the number of filings and termination of parental 
rights motions in Family Court. In fact, just yesterday I 
received a briefing from them as to how they were reviewing the 
cases, how they plan to go forward increasing the numbers.
    The Family Court judicial officers have participated in 
additional training in anticipation of receiving more filings, 
as we have recently, and as we will in the future. And we've 
done training on the importance of moving these cases forward 
expeditiously as possible.
    As part of the training, we have members of CFSA come speak 
to the judges about CFSA's efforts to recruit pre-adoptive 
families and the positive impact that legally ``free'' children 
would have on their recruitment efforts.
    I have established a Family Court policy that TPR motions, 
termination of parental rights motions, should be considered a 
priority when there is no related adoption proceedings. As we 
have indicated in the past, when there is a related adoption 
proceeding, generally the parental rights are terminated during 
the course of those proceedings.
    Finally, the Family Court, the Office of Attorney General, 
and CFSA, with the significant assistance of the Center for 
Study of Social Policy, Ms. Meltzer, as well as the Council for 
Court Excellence, are in the process of finalizing a discussion 
paper and recommendations about when it's appropriate to begin 
a TPR proceeding and when there are compelling reasons not to. 
This effort began in our child welfare leadership team 
meetings, and it is designed to guard against overuse of the 
provision of the law that allows for a determination of 
compelling reasons not to begin termination of parental rights 
proceedings. These recommendations will include criteria for 
making such a determination.
    I might add that we plan to do that also in the area of 
alternative planned living arrangements to make sure that we're 
not making the decision too soon about a child aging out of the 
system so that we will be on the same page in the criteria with 
respect to that. That has already started in Ms. Meltzer's 
office.
    On to the new foster care initiatives. I remember, again, 
testifying a few years ago, when the court was submitting its 
transition plan, and I remember Senator Landrieu's raising of 
the issue of family team meetings. While I think the agency 
wasn't at that hearing, they must have heard her, because they 
started that process this year, and we are very pleased and 
encouraged by that process. It's designed to bring all family 
members and other interested people together to discuss the 
needs of children and to create a plan for each child's safety 
and permanency.
    As the court, our role in that initial process is to 
appoint guardians ad litem to attend these meetings. I've 
spoken to a few of the guardians ad litem that have attended 
these meetings recently, and they speak very highly about the 
substance that's coming out of the meetings and the plans that 
are coming out of the meetings. So, that makes us very 
optimistic that these meetings are going to help decrease the 
time it takes to achieve permanency. As Director Donald Walker 
indicated, that will reduce the amount of placements of 
children, thereby, reducing the risk of trauma to our children.
    These meetings will enable us to make better decisions with 
respect to the relatives, when we need to go to a relative 
placement, and help us to make them sooner, at the beginning of 
the case, and not in the middle of the case. So often in the 
past, relatives would appear then and the whole plan had to 
start all over because of that.
    The other programs that are in collaboration with DMH and 
CFSA programs, we think, too, will benefit the children of the 
District of Columbia, and we thank you for the money that 
you've put into those programs to impact those programs.
    I've spoken to a couple of attorneys about the difference 
that some of those programs have made already, particularly 
with respect to a child not being removed from the home because 
of the programs.
    And, finally, the assessments. The money, the Federal 
dollars, provided to DMH has made a significant difference the 
past year in substantially decreasing the time to obtain 
evaluation of the child or the parent. The quality of the 
mental health evaluations are excellent. We just hope that that 
will continue, in terms of the decrease in the time to get the 
assessment that is so important to how we provide services to 
our children.

                           PREPARED STATEMENT

    So I thank you for the opportunity to testify.
    Senator DeWine. Good, Judge, thank you very much.
    [The statement follows:]

             Prepared Statement of Judge Lee F. Satterfield

    Chairman DeWine, Senator Landrieu, Subcommittee Members, thank you 
for inviting me to testify at this hearing about foster care in the 
District of Columbia. I am pleased to state that due to the support of 
Congress and the work of the D.C. Child and Family Services Agency 
(CFSA), the Department of Mental Health (DMH), the courts and all of 
other stakeholders interested in the welfare of our abused and 
neglected children in this city, we continue to make significant 
progress in achieving permanency for our children. In 2004, the Family 
Court increased the number of dispositions in cases involving abused 
and neglected children, in guardianship cases, in adoption cases, and 
in termination of parental rights motions.
    My testimony will focus on three areas that I believe will be 
invaluable to our continued progress: (1) a joint initiative to 
increase the number of termination of parental rights motions filed and 
resolved in court; (2) new programs implemented by CFSA and DMH and the 
intended impact on the lives of our abused and neglected children; and 
(3) the DMH Assessment Center, the primary center for evaluating the 
mental health needs of our abused and neglected children.
    Most of these areas are directly impacted by the federal dollars 
provided by the leadership of this committee. I hope they will continue 
to make a positive impact in the District of Columbia foster care 
system.

Termination of Parental Rights
    Over the past year, there has been an increased urgency among CFSA, 
the District of Columbia Office of Attorney General (OAG) and the 
Family Court to remove--when appropriate--the legal barriers that are 
sometimes obstacles to a child's chances of being adopted by a loving 
family. The OAG and CFSA are engaged in an initiative to increase the 
number of TPR filings in Family Court. The Family Court judicial 
officers have participated in additional training on the management of 
TPR proceedings and the importance of moving these cases forward as 
expeditiously as possible. As part of the training, CFSA adoption 
recruitment workers spoke to the judges about CFSA's efforts to recruit 
pre-adoptive families and the positive impact that legally ``free'' 
children would have on their recruitment efforts. I have established a 
Family Court policy that TPR motions should be considered a priority 
when there are no related adoption proceedings. As we have indicated in 
the past, when there is a related adoption proceeding, generally, the 
parental rights are terminated during the course of those proceedings. 
Finally, the Family Court, the OAG and CFSA, with significant 
assistance from the Center for the Study of Social Policy, are in the 
process of finalizing a Discussion Paper with recommendations about 
when it is appropriate to begin a TPR proceeding and when there are 
compelling reasons not to begin TPR proceedings. This effort began in 
our Child Welfare Leadership Team, comprised of representatives from 
CFSA, DMH, OAG, the Council for Court Excellence, and the Center for 
the Study of Social Policy. It is designed to guard against over use of 
the provision of law that allows for a determination of compelling 
reasons not to begin TPR proceedings. The recommendations will include 
criteria for making such a determination.

New Foster Care Initiatives
            Family Team Meetings
    CFSA has begun to conduct Family Team Meetings before the court 
proceedings are initiated in cases involving abused or neglected 
children. These meetings, which use federal funding, are designed to 
bring all family members and other interested people together to 
discuss the needs of the children and to create a plan for each child's 
safety and permanency. The Family Court judges appoint guardians ad 
litem to attend these meetings. The Family Court is very optimistic 
about these meetings. We expect that, in many cases, when the court 
proceeding begins, plans for the safety of the child and for achieving 
permanency will have been established and will be presented to the 
judge at the initial hearing. These meetings will decrease the amount 
of time it takes to achieve permanency because relatives can be 
identified earlier in the process. The relatives serve a useful purpose 
in that they are available to assist the parents in absolving the 
neglect issues and are available as potential permanent placement 
resources.

            Multisystemic Therapy
    This DMH/CFSA program, which is federally funded, targets youth 
ages 10-17 who are currently in or returning from residential 
treatment. Therapeutic services will be provided to youth in foster 
care with histories of violence, drug abuse, and school failure.

            Intensive Home and Community Based Services
    This DMH/CFSA program, also funded with federal dollars, will 
provide intensive home focused services to children and youth who are 
seriously emotionally disturbed or behaviorally disordered, and the 
support teams will be available 24 hours a day, 7 days each week.

            Mobile Response and Stabilization Services
    This federally funded DMH/CFSA program will provide mobile crisis 
support to foster youth and their biological and foster families.
    Each of these new programs came online earlier this year following 
an intensive preparation period that involved, among other things, 
presentations to the Family Court judges. While it is too early to 
report on the long-term impact of such programs on the lives of our 
abused and neglected children and their families and foster parents, 
the judges are very encouraged that such programs will positively 
impact the well being of the children we protect in the court system.

Assessment Center
    The DMH Assessment Center plays a vital role in the Family Court's 
ability to protect children and strengthen families. Federal dollars 
provided to DMH have made a significant difference in the past year, 
substantially decreasing the time to obtain an evaluation of a child or 
his or her parent. Judges report that the quality of mental health 
evaluations prepared by the Assessment Center is excellent. Recently, 
however, there has been some disruption in service due to a failure to 
pay Assessment Center doctors. This problem is of concern, and Chief 
Judge King has met with the Director of DMH to ensure that the 
disruption is minimal and that a backlog of referrals for assessments 
does not develop.

Conclusion
    There is always more that can be done to ensure safety and obtain 
permanency for our abused and neglected children, and the Family Court 
is committed to using the best practices in managing the cases 
involving those children. We will continue to work with CFSA, DMH and 
other District agencies and organizations that serve children and 
families. We are currently in the process of preparing our annual 
report to Congress in which will elaborate on the 2004 Family Court 
activity that affected cases of families and children in Family Court. 
As in years past, this report will be filed in a timely fashion, on or 
before March 31, 2005.
    Thank you for this opportunity to testify and for the support this 
subcommittee has provided the Family Court to enable us to ensure that 
abused and neglected children in the District of Columbia find 
permanent loving homes more quickly.

    Senator DeWine. Ms. Meltzer.

STATEMENT OF JUDITH MELTZER, DEPUTY DIRECTOR, CENTER 
            FOR THE STUDY OF SOCIAL POLICY
    Ms. Meltzer. Thank you, Chairman DeWine, for this 
opportunity.
    I'm the Deputy Director of the Center for the Study of 
Social Policy, and we serve as the independent court-appointed 
monitor under LaShawn A. v. Williams. Under that litigation, 
the District is working toward the goals set forth in the 
Federal court implementation plan which was approved by Judge 
Hogan in May 2003.
    The implementation plan lays out strategies that the 
District has agreed to take to improve its child welfare 
system, and it sets measurable targets for improvement on 
performance and outcomes between June 2003 and December 2006.
    As you have heard from the previous people who have just 
testified, the District's Child and Family Service Agency today 
is a far different and far better functioning agency than it 
has been in the past. The quality of its leadership, the level 
of commitment, the collaboration among the stakeholders in the 
District is better than it's ever been. And over the past 3 
years, there's been progressive and measurable improvement in 
many areas. In addition, the system as a whole, and CFSA in 
particular, is increasingly able and willing to hold itself 
accountable and be held accountable for results.
    This last year has been one of considerable gain, and there 
are enumerable examples of success. Overall, our assessment of 
progress continues to be positive, although compliance with 
specific performance benchmarks, while moving in the moving in 
the right direction, is not meeting established targets in many 
areas. Full compliance within 2 years is going to be a reach, 
but we do believe that it is possible.
    Many of the District's recent accomplishments have 
benefitted from the special investments of your subcommittee, 
and I want to thank you and echo the thanks of others here for 
that. The additional Federal funds and the purposes for which 
each appropriation has been focused have provided both the 
impetus and support for critical strategic reforms. There have 
been many accomplishments, many related to the specific 
appropriations that you've made. I'm not going to repeat them 
now; they're all in my written testimony.
    What I want to talk about, though, is the things that I 
think could benefit from some help in the future. And I'm going 
to turn to that now.
    I think there are four areas where I think the subcommittee 
can make additional investments to stimulate and reinforce 
desired results.
    Number one is meeting the needs of older youth in foster 
care. The District's foster care population is unusually and 
heavily weighted toward teenagers. In fact, most of the 
children in foster care are very young. In the District, 43 
percent of the children in care, as of the end of December, 
were age 14 and over. As Ms. Donald Walker said, this is the 
legacy of a system that was broken for 10 to 12 years. The 
agency has a responsibility to make sure, however, that when a 
child leaves foster care at age 21, they have the necessary 
relationships, skills, and support to survive and succeed in 
life. This is appropriately a priority area of focus with CFSA, 
and they're currently preparing a comprehensive plan based on 
best practices.
    The Congress can assist this important effort by providing 
funds for innovative service strategies, particularly for 
housing and job support for teens and for efforts to connect 
them with lifelong support from caring adults in their 
community.
    Number two would be--is expanding the availability of post-
adoption and post-permanency mental health and other support. 
Again, you've heard that the District is doing a much better 
job at moving children to permanency through adoption and 
guardianship. They now have an equally important responsibility 
to provide post-adoption and post-permanency support. Without 
this help, foster and adoptive families will become reluctant 
to become the permanent guardians or to adopt.
    The LaShawn order and implementation plan require the 
agency to offer these kinds of services. But, so far, they have 
been minimally available. Funding to expand access to--by 
adoptive families and permanent guardians to the special-ed 
mental health services that has been recently made available to 
foster families would be an important step in this direction.
    Number three is improving educational outcomes for children 
in foster care. Research confirms that children in foster care 
are at very high risk of educational failure due to experiences 
prior to coming into foster care, whether it's exposure to 
prenatal drugs and substance abuse or separation issues from 
their birth families, and, while in foster care, for example, 
due to multiple moves while in placements, and sometimes the 
lack of consistent educational services.
    Social work staffs do not typically pay close enough 
attention to the educational needs of children in foster care, 
and school systems are usually unaware or uninvolved in the 
educational progress of these children. Congress can help focus 
on this issue by providing funding for joint work between CFSA 
and the local school system, to better identify, assess, and 
track education needs and progress, and to support strategies 
for appropriate educational advocacy.
    One proposal is to establish educational passports for 
children in foster care so that information on their 
educational strengths, needs, and progress is easily 
transferred.
    My last recommendation is that--regarding screening 
assessments and early intervention with very young children. 
Again, infants and toddlers who come to the attention of the 
child welfare system or enter foster care are at high risk for 
developmental delays, resulting in their lack of readiness to 
enter and succeed in school.
    At the same time, once these children are known to the 
child welfare system, there are important opportunities to 
assess their developmental progress, improve parents' 
understanding of child development, link families to high-
quality child development programs, and ensure the provision of 
early intervention services where needed and appropriate. I 
speak a little bit more about this in my written testimony.

                           PREPARED STATEMENT

    In closing, I thank the subcommittee for their ongoing 
interest and oversight. Your support must remain strong if the 
District is to be successful in meeting the requirements of the 
LaShawn implementation plan and, more importantly, if it can 
sustain a system with high-quality performance long after 
LaShawn goes away.
    Thank you.
    Senator DeWine. Great, thank you very much.
    [The statement follows:]

                  Prepared Statement of Judith Meltzer

    Thank you Chairman DeWine, Senator Landrieu and other members of 
the Subcommittee on the District of Columbia of the Appropriations 
Committee for this opportunity to update you on recent progress of the 
District of Columbia's child welfare system. My name is Judith Meltzer, 
and I am Deputy Director of the Center for the Study of Social Policy 
in Washington, DC. The Center for the Study of Social Policy is the 
independent court-appointed Monitor under the LaShawn A. v. Willliams 
litigation. The District of Columbia is working towards the goals set 
forth in the Federal Court Implementation Plan, which was approved by 
the U.S. District Court in May 2003. The Implementation Plan lays out 
the strategies that the District has agreed to take to improve its 
child welfare system and sets measurable targets for improvement on 
performance and outcomes between June 2003 and December 31, 2006.
    The District's Child and Family Services Agency (CFSA) today is a 
far different and far better functioning agency than it has been in the 
past. The quality of its leadership and the level of commitment and 
expertise of staff at all levels and in all areas is better than it has 
ever been and continues to grow. Over the past three years, progressive 
and measurable improvements towards creating an agency that understands 
and carries out its mission to protect children and preserve families 
have been made. CFSA is increasingly able and willing to hold itself 
accountable and to be held accountable by outside entities for results.
    While the Child and Family Services Agency (CFSA) is the primary 
agency in District government responsible for child welfare services, 
its success in serving children and families depends also on the 
effective functioning of other District agencies including the 
Department of Mental Health, the Addiction Prevention and Recovery 
Administration, the Office of the Attorney General and the Family 
Court.
    This last year has been one of considerable gain for the District's 
child welfare system and there are numerous examples of success that 
can and should be highlighted. Overall our assessment of progress 
continues to be positive although compliance with performance 
benchmarks, while mostly moving in the right direction, is not meeting 
established targets in many areas. Full compliance with the outcomes of 
the Implementation Plan is expected within the next two years, and 
significant strides in many performance areas will be needed for the 
Agency to meet this deadline. However, we continue to believe that the 
compliance for outcomes can be met by the end of 2006 or early 2007.
    Many of the District's recent accomplishments in child welfare 
reform have benefited from the special investments of your 
Subcommittee. The additional federal funds and the purposes for which 
each appropriation has been focused provided both impetus and support 
for critical strategic reforms that have moved the system forward. 
There have been many accomplishments this year, but I wish to highlight 
the following:
  --CFSA's ability to hire qualified social workers and retain them has 
        significantly improved over prior years. The workforce is more 
        stable, resulting in a continued overall decline in worker's 
        caseloads. The caseload level is approaching the levels both 
        required by the Implementation Plan and where workers can be 
        expected to consistently provide high quality service to 
        families. The special federal appropriation to establish a 
        social work loan repayment program is important not only for 
        the District of Columbia, but if successful, can provide a 
        national model for addressing child welfare workforce 
        recruitment and retention.
  --CFSA has an ambitious training plan to upgrade the practice skills 
        of workers. Importantly, they have begun implementing an 
        approach to practice based on principles of family engagement. 
        CFSA recently launched a ``Family Team Meeting'' (FTM) 
        initiative that is based on best practice evidence and seeks to 
        involve family, extended family, community support and 
        professionals in joint work to assess family strengths and 
        needs, and develop and carry out plans for children's safety 
        and permanency. This work also has benefited from the early 
        intervention appropriation by the Congress, which pays for the 
        training and salaries of FTM facilitators and flexible funding 
        for services. If successfully implemented, the use of family 
        team meetings should mean that more children can safely remain 
        or safely return to their families.
  --Collaborative work with the Family Court continues to be 
        strengthened, and the joint CFSA/Family Court work to resolve 
        social work and legal barriers that for many years have kept 
        children lingering in foster care without permanency is moving 
        forward. More children than ever before were provided permanent 
        homes this year though adoption and guardianship (over 600 
        children) and there is a clear and strong commitment from the 
        Family Court, the Office of the Attorney General and CFSA to 
        take appropriate and needed actions on the approximately 500 
        children still in foster care who need legal permanency.
  --The cooperative work between CFSA and the Department of Mental 
        Health is beginning to pay off. Again, with Congressional 
        support, there are now new mental health resources available 
        for assessment of children's needs, crisis stabilization 
        services and a range of in-home and other supportive therapies. 
        More work is needed as the District's mental health system 
        builds its capacity and quality, but there is real progress 
        here.
  --CFSA's commitment to quality practice improvement is increasingly 
        evident in the quality and accuracy of its performance data and 
        its use of data to assess performance, identify problems and 
        track progress. CFSA has also launched an effort to routinely 
        assess the quality of their practice through a rigorous Quality 
        Service Review (QSR) approach that has been successfully used 
        in many states to support and propel continuous practice 
        improvement.
  --After a difficult and much delayed process, CFSA has renegotiated 
        new contracts for congregate and family-based care with almost 
        all of its service providers. These contracts include clear 
        performance expectations and are the first step in a multi-year 
        process to implement a performance-based contracting system. 
        This means that future decisions about contracted services can 
        be determined by each agency's objective performance and 
        results.
  --CFSA is working towards the full development of web-based access to 
        its management information system. This is another initiative 
        that has benefited from federal investment. Contracted agencies 
        that provide CFSA with foster families are now able to enter 
        placement data through the web-based system thereby improving 
        the tracking and timeliness of information, and the accuracy of 
        reimbursement for their foster care services. It is expected 
        that by December 2005, the contract agencies will be able to 
        enter into the web-based system all case management data 
        related to families and children.
    Many of these improvements have been made possible through generous 
appropriations by the United States Congress and with support from the 
Mayor and the Council of the District of Columbia. Without Congress' 
foresight, understanding of the needed reforms and commitment to 
children and families, these changes would not have been possible.
    However, despite real and measurable improvements, the District 
still has a long road to travel if it is to become the model child 
welfare system that we all desire. Problems remain in timely and high 
quality investigations of child abuse and neglect; in work to safely 
maintain and support children with their families and in their 
communities; and to make sure that all of the children in foster care, 
including the children who have been in foster care for many years, are 
helped to secure permanent homes with loving families.
    In looking ahead to the next few years, there are four areas where 
I think the Subcommittee can make additional investments to stimulate 
and reinforce desired results. They include:

Meeting the needs of older youth in foster care
    The District's foster care population is unusually and heavily 
weighted toward teenagers. Forty-three percent (43 percent) of the 
children in out-of-home care as of December 31, 2004 were age 14 or 
over. This is the legacy of a system that was broken for too long and 
allowed many young children to grow up in foster care. It creates 
particular challenges for developing the correct range of placements 
suitable for adolescents, and the services and supports teenagers need 
to grow into successful young adults. The Agency has a responsibility 
to make sure that when a child leaves foster care at age 21, they have 
the necessary relationships, skills and supports to survive and succeed 
in life. This is appropriately a priority area of focus for CFSA this 
year. They are preparing a comprehensive plan based on best practices 
in supporting adolescents and their successful transition from foster 
care. The Congress can assist this important effort by providing funds 
for innovative service strategies, particularly in housing and job 
supports for teens, and in efforts to connect them to lifelong supports 
from caring adults and their community.

Expanding the availability of post-adoption and post-permanency mental 
        health and other support
    The District child welfare system, like other systems across the 
country, has done a better job recently at helping children to find 
adoptive homes and permanency through subsidized guardianship; they now 
have an equally important responsibility to provide post-adoption and 
post-permanency supports to these children and families. Without this 
help, foster and adoptive families will become reluctant to become 
permanent guardians or to adopt, thus threatening the stability of 
children's placements. The LaShawn Order and Implementation Plan 
require the Agency to offer and provide post-adoption supports but 
efforts to date have been minimal. Funding for comprehensive post-
permanency supports is urgently needed, and this is another high 
priority area for CFSA this year. In addition, funding to expand access 
by adoptive families and permanent guardians to the specialized mental 
health services recently made available for foster families is 
important to meet the needs of children as they adjust to new families.

Improving educational outcomes for children in foster care
    Research confirms that children in foster care are at very high 
risk of educational failure due to experiences prior to their 
involvement with the child welfare system (for example, exposure to 
prenatal drugs and substance use, separation from birth families) and 
while in foster care (for example, multiple moves, lack of consistent 
educational services). Social work staff, both in the District of 
Columbia and across the nation, do not typically pay close attention to 
the educational needs of children in foster care, and school systems 
are usually unaware or uninvolved in the educational progress of these 
children. Congress can help focus on this issue by providing funding 
for joint work between CFSA and local school systems to better 
identify, assess and track the educational needs and progress of 
children in foster care and to support strategies for appropriate 
educational advocacy and educational support services for children. One 
proposal is to establish educational ``passports'' for children in 
foster care so that information on their educational strengths, needs 
and progress is easily transferred if their placements change, as they 
frequently do, or when they are unified with birth families or 
relatives.

Screening, assessment and early intervention with very young children
    Infants and young toddlers who come to the attention of child 
welfare systems and/or enter foster care are at high risk for 
developmental delays, resulting in their lack of readiness to enter and 
succeed in school. At the same time, once these children are known to 
the child welfare system, there are important opportunities to assess 
their developmental progress, improve parent's understanding of child 
development, link families to high quality child development programs, 
and ensure the provision of early intervention services, where needed 
and appropriate. Quality early care and education programs can also 
provide important supplemental support to families facing difficult 
circumstances; help build parental resiliency, provide knowledge and 
other resources and assist parents with parenting skills and child 
development knowledge. While CFSA helps foster families secure child 
care as a support for working caregivers, there has not been a focus or 
joint work with the District's Office of Early Childhood to assure that 
high quality, developmentally appropriate programs are available and 
provided for all high risk infants and toddlers. Adequate funding is 
one barrier that hampers efforts to address this issue, and 
congressional funding for increased access to enriched early care and 
education programs would make an important contribution. In addition, 
the Keeping Children and Safe Families Act of 2003 requires the 
development of provisions and procedures for the referral to early 
intervention services funded under Part C of the Individuals with 
Disabilities Act of any child under the age of 3 who is involved in a 
substantiated case of abuse or neglect. Again, adequate funding for 
cross-staff training and interagency collaboration for early needed 
intervention services has been a barrier to ensuring that all children 
in the District of Columbia who need these services get them--in time 
to make a difference.
    In closing, I thank the Subcommittee for their ongoing oversight of 
child welfare performance in the District of Columbia. This support 
must remain strong if the District is to be successful in meeting the 
requirements of the LaShawn Implementation Plan, and sustain a system 
with high quality performance for the District's children and families 
long after the LaShawn Order goes away. Thank you and I will be glad to 
answer questions.

    Senator DeWine. Ms. Egerton.

STATEMENT OF MARILYN EGERTON, DEPUTY DIRECTOR, FOSTER 
            AND ADOPTIVE PARENT ADVOCACY CENTER
    Ms. Egerton. Good afternoon, Chairman DeWine, Senator 
Landrieu, in her absence.
    My name is Marilyn Egerton, and I'm the Deputy Director of 
the Foster and Adoptive Parent Advocacy Center, commonly known 
as FAPAC. I've been a D.C. foster and adoptive parent for over 
13 years. I'd like to thank you for the opportunity to testify 
for the needs of the District's most vulnerable children.
    I'm here today to report on the impact of the new 
initiatives that the District has developed for our children 
due to the generosity of the financial resources that came from 
this subcommittee. I must admit that the first time we came 
before you, we were a bit overwhelmed at being asked to 
testify. We never expected that the testimony of our small 
organization would have any impact on a congressional 
committee. But you listened, and we are touched and extremely 
grateful to you for providing our children with the 
opportunities brought to the District by these appropriations.
    The funding that came from this committee has been 
instrumental in developing new, unique, and exciting 
initiatives for the children in D.C.'s child welfare system. 
Our closest involvement in the new programs has been with the 
Metropolitan Washington Council of Governments, or COG, toward 
the development of the new respite program. COG has succeeded 
in establishing this program to meet the needs of our families.
    I would like to identify some of the key elements of the 
program. The new respite program utilizes respite families, 
who, although they are trained by COG and become fully licensed 
foster parents, they provide this service as volunteers. COG 
chose this model of volunteer families so that the program 
would be affordable and sustainable into the future.
    After COG trains the families in the 30-hour pre-service 
training program, all families become licensed in their 
respective jurisdictions. To recruit families for respite and 
for foster care, COG has attended 10 major recruitment 
activities, had 11 presentations to churches and businesses, 
and distributed over 50,000 brochures and flyers through 
newspaper inserts.
    COG has held three weekend-long training sessions. Thirty 
families have been trained, and five are fully licensed. The 
others are awaiting their clearance approvals. A major barrier 
to expedient licensing is the 3 to 4 month wait for FBI 
clearances. COG is working with the local FBI field office to 
try to reduce the waiting time.
    Due to the timeframe required to establish all the 
components to this program, and the challenges in getting 
people licensed, overnight placements have just begun. Forty-
five children from ages 1\1/2\ to 17 years old are currently 
approved to receive respite services.
    Another unique component of the respite program is the 
daytime respite enrichment project. Many families who do not 
feel comfortable leaving their children overnight for respite 
prefer the ability to have daytime opportunities for a break.
    Our challenge is for our blended families, those families 
who have both foster and adoptive children. We are hearing of a 
great need from our adoptive families to also receive respite 
services, and are working to identify a means to meet these 
needs.
    Although we have not been as hands-on in our involvement 
with the other initiatives, we do want to share our 
observations about their progress and potential for our 
families. We are excited about the development of the family 
team meetings. As foster parents, many of us have seen, up 
front--have seen, up front, the damage done when the system 
does not make an effort to involve the birth families of our 
children when they first come into care. We support the 
identification of family members who can be potential resources 
for our children up front and in the beginning. And we believe 
that the work of assessing family members as resources must 
start immediately.
    From the start, both CFSA and DMH have been inclusive of 
foster-parent input into the development of the mental health 
initiatives. We think that the Mobile Crisis Access Units, 
specifically, will have a significant impact on the stability 
and well-being of our families. We know that mental health 
crisis without crisis intervention can lead to placement 
disruption. We have already heard from a few families who have 
used this service, and the good word is spreading.
    However, as with the respite program, when we announce 
these programs, we are receiving reactions of dismay from 
members of our community who are post-adoption and post-
guardianship. The special needs of their children do not 
disappear with the signing of the final adoption and 
guardianship decrees, but many of their services disappear. 
Advocates and service providers in the District of Columbia 
must come together to find ways to drastically increase the 
range of services offered to families post-adoption and post-
guardianship.
    In closing, I want to, again, offer our gratefulness to 
you, Senator DeWine and to the other members of the 
subcommittee, for the opportunities you've brought to the 
children and foster families of the District of Columbia. Your 
financial resources and support for the work that has been done 
has helped us to all turn a significant corner toward greater 
improvement in our system.

                           PREPARED STATEMENT

    Continued funding for these crucial services is vital in 
ensuring that these programs get fully institutionalized into 
the framework of services available to our families.
    Thank you.
    Senator DeWine. Ms. Egerton, thank you very much.
    [The statement follows:]

                 Prepared Statement of Marilyn Egerton

    Good afternoon, Chairman DeWine, Senator Landrieu, and other 
members of the Committee. My name is Marilyn Egerton and I am the 
Deputy Director of the Foster & Adoptive Parent Advocacy Center, 
commonly known as FAPAC. I have been a D.C.foster and adoptive parent 
for over 13 years. Thank you for the opportunity to testify for the 
needs of the District's most vulnerable children.
    I am here today to report on the impact of the new initiatives that 
the District has developed for our children due to the generosity of 
the financial resources that came from this committee.
    I must admit that the first time we came before you, we were a bit 
overwhelmed at being asked to testify. As a small and relatively young 
advocacy organization, we were not sure what we could offer you in the 
way of meaningful testimony that would help you to assess the needs of 
our children and families. So we did what we know best, and spoke our 
truth. What was amazing to us was that you listened. We never expected 
that the testimony of our small organization would have any impact on a 
Congressional committee. We were touched in your trust in our 
testimony. On behalf of D.C.'s foster families, we are extremely 
grateful to you for providing our children with the opportunities 
brought to the District by this appropriation.
    The funding that came from this committee has been instrumental in 
developing new, unique and exciting initiatives for children in the 
District's child welfare system. The Mental Health programs, the Family 
Team Meetings and the Respite Project all bring services to our 
children and families that will have the potential to change the 
landscape for our families in deep and meaningful ways.
    Our closest involvement in the new programs has been with the 
Metropolitan Washington Council of Governments, or COG, towards the 
development of the new Respite Program. When we came before you in 2003 
we stated that the lack of respite was a serious barrier for our 
families. Today we can report that since March 24, 2004 when the 
federal funding was received, COG has succeeded in establishing a new 
respite program to meet the needs of our families. Although based upon 
research in other jurisdictions, this program has unique components 
specific to the needs and requirements of the District of Columbia. I 
compliment both COG and Child and Family Services Agency, or CFSA, for 
the many hours of work together to establish a program which meets the 
needs of families, the needs of the agency, and the need for a model 
that can become financially sustainable into the future. To these ends 
I will identify some of the key elements of this new program:
  --The new respite program utilizes respite families, who although 
        they are fully trained by COG and become licensed the same as 
        other foster parents, they provide this service as volunteers. 
        COG chose this model of volunteer families so that the program 
        would be affordable and sustainable into the future. CFSA felt 
        strongly that for the best safety of our children, all families 
        should be fully licensed foster families. This component is 
        unique from the model used in some other jurisdictions.
  --After COG trains the families in the 30-hour pre-service training 
        program, all families become licensed in their respective 
        jurisdictions. CFSA licenses the D.C. families and appropriate 
        Maryland and Virginia agencies license the Maryland and 
        Virginia families, with CFSA approval of all families before 
        children are placed.
  --To recruit families for respite and for foster care, COG has 
        attended 10 major recruitment activities, had 11 presentations 
        to churches and businesses and distributed over 50,000 
        brochures and flyers as newspaper inserts.
  --COG has held three week-end long training sessions. Thirty families 
        have been trained and five are fully licensed. The others are 
        awaiting their clearance approvals. A major barrier to 
        expedient licensing is the three to four month wait for FBI 
        clearances. This is a major barrier for recruitment and 
        licensing throughout the metropolitan area, not just for this 
        project. COG is working with the Washington field office of the 
        FBI to see if there is anything that could be done to reduce 
        this waiting period.
  --Due to the time frame required to establish all the components to 
        this program and the challenges in getting people licensed, 
        overnight placements have just begun. Forty-five children from 
        the ages of 1.5-17 years are currently approved to receive 
        respite services.
  --We have a foster parent community that has never had consistent 
        respite available. As a result, part of the task has been to 
        educate our community about the availability and the 
        application process. To best inform the foster parent community 
        of these services, COG has been holding informational meetings 
        with families as well as with social workers as well as sending 
        out written information. Social workers are a key component. If 
        respite is to meet its potential as an intervention for 
        retention and prevention of disruption, social workers need to 
        be continually aware of this service and inform their families 
        of its availability.
  --Another unique component of the respite program is the daytime 
        respite/enrichment project. Many families who do not feel 
        comfortable leaving their children overnight for respite prefer 
        the ability to have daytime opportunities for a break. FAPAC 
        has developed relationships with four fully licensed community 
        enrichment programs, with two more pending, for our children to 
        have day-long enrichment opportunities on weekends using the 
        federal funding to voucher our children into these programs. 
        These are not segregated settings for children in foster care, 
        but rather community programs which have expanded to embrace 
        our families. So far 11 families have used daytime respite and 
        almost 30 more families are in the approval process by their 
        agencies.
  --The interest in respite is growing weekly as word gets out in the 
        foster parent community.
  --One challenge is for our ``blended'' families, those families who 
        have both foster and adoptive children. Since these respite 
        programs are specific to children in foster care, those 
        families who also have adoptive children hesitate to break up 
        their children for respite placements. We are hearing of a 
        great need from our adoptive families to also receive respite 
        services, and are working to identify means to meet these 
        needs.
    Although we have not been as ``hands on'' in our involvement with 
the other initiatives, we do want to share our observations about their 
progress and potential for our families. We are excited about the 
development of the Family Team Meetings. As foster parents, many of us 
have seen up front the damage done when the system does not make an 
effort to involve the birth families of our children when they first 
come into care. We have many foster families who report that over the 
years they actually had to encourage social workers to find birth 
families and set up visits. Also, when birth families are not involved 
from the beginning, transitioning to pre-adoptive status is risky for 
our foster families. There is always the potential and often the 
reality of family members coming into the picture years later, when the 
bonds of attachment between child and foster family are deep and 
substantial, and then contested situations occur. We support the 
identification of family members who can be potential resources for our 
children up front and in the beginning, and we believe that the work of 
assessing family members as resources must start immediately. We look 
forward to social work practice shifting to accommodate the changes 
that can be brought by these Family Team Meetings.
    As we stated in our previous testimony, D.C.'s foster parents have 
cried out for years for quality mental health services for their 
children. Our children suffer many losses and wounds that make the need 
for quality mental health a crucial aspect of their healing. Through 
their partnership on these initiatives, CFSA and the Department of 
Mental Health (DMH) have come closer than we have ever seen before in 
developing a plan to meet these needs. We have been impressed with the 
extensive work, thought and planning from both CFSA and DMH that went 
into these initiatives.
    From the start, both CFSA and DMH have been inclusive of foster 
parent input into the development of these initiatives. Both CFSA and 
DMH staff come out on evenings and weekends to train groups of foster 
parents about these programs. The response of our community has been 
extremely positive upon hearing about these new opportunities.
    We think that the Mobile Crisis Access Unit specifically will have 
a significant impact on the stability and well-being of our families. 
We know that mental health crisis without crisis intervention can lead 
to placement disruption. Our families are not used to getting help in 
crisis. We believe that this service can have the potential to turn 
around this paradigm and help to empower foster parents to feel 
comfortable moving through those crises with their children. We have 
already heard from a few families who have used this service, and good 
word is spreading!
    However, as with the respite program, when we announce these 
programs, we are receiving reactions of dismay from members of our 
community who are post adoption and post guardianship. The special 
needs of their children do not disappear with the signing of the final 
adoption or guardianship decrees, but many of their services disappear. 
Advocates and service providers in the District of Columbia must come 
together to find ways to drastically increase the range of services 
offered to families post adoption and post guardianship.
    In closing, we want to again offer our gratefulness to you, Senator 
DeWine, and to the other members of this committee, for the 
opportunities you have brought to the children and foster families of 
the District of Columbia. Your financial resources and support for the 
work that has to be done has helped us to all turn a significant corner 
towards greater improvement in our system. Continued funding for these 
crucial services is vital to insuring that these programs get fully 
institutionalized into the framework of services available to our 
families.
    Thank you.

    Senator DeWine. I think I saw Eleanor Holmes Norton come 
in. I want to thank you for coming. We're always delighted to 
see you here. Thank you very much.
    We're going to have another vote shortly, and I'm not going 
to hold this group, so when that vote occurs, we'll end the 
hearing. So that means we have a condensed period of time. So 
what that means is, we're going to have some written questions 
for you all to help our subcommittee.
    Testimony has been great. Very, very helpful.
    Ms. Meltzer had four different suggestions. I wonder if I 
could ask the rest of the panel to comment on those four 
priorities. This subcommittee is here to help you all, and--but 
we have limited resources, and--you know, we don't know exactly 
how limited those resources are going to be, but we know 
they're going to be limited. And so, we will hope to continue 
to do some of the things that we've already started. We hope to 
do some additional things. And so, I just wanted to know if I 
can get some comments on maybe the four things that she talked 
about.
    And some of you had already mentioned several of them, 
anyway, but she gave some of the latter testimony, so it's on 
my mind.
    Ms. Walker. Great. Thank you, Mr. Chairman. We certainly 
concur with the recommendations, and I think the one theme that 
you heard threaded throughout was the need for post-adoption 
support services. And we would really like to come together and 
talk about what some of those services would be. And there's 
definitely a need. As our population----
    Senator DeWine. And post-permanency, I think she said, too.
    Ms. Walker. And post- --exactly--for guardianship. We're at 
the point, I think, within the next year, where our caseload is 
likely to cross, in terms of the number of children who have 
been adopted or who are in guardianship, and the number in 
care. We currently have a little over 2,000 children for whom 
we are still providing subsidies, either guardianships or 
adoption subsidies, and a little under 2,700 children in foster 
care. And as we get more aggressive and better at moving 
children to permanence quicker, we certainly are going to 
cross. And that's a very good thing.
    But, clearly, as we have many older children in the system, 
which, again, Ms. Meltzer mentioned, and I did, as well, we are 
still trying to find permanence for those young people, and 
they tend to have higher needs, because many of them have been 
in foster care for a long time. And if we're to encourage 
foster parents or adoptive parents to take these young people 
into their families permanently, we certainly need to be able 
to offer the kinds of support that they'll need in order to be 
successful. We certainly support that.
    The educational needs are clearly there. Judge Satterfield 
and I have made an outreach to the new public school--D.C. 
Public School Superintendent, and with Marty Knisley, so that 
we can form a team and talk about the kinds of strategies and 
supports needed for our children. So I think we're very 
consistent in our recommendations of what's needed.
    Additionally, CFSA put in your packets our housing white 
paper. And we've had some conversations with Senator Landrieu 
about the need for housing. We have a number of children in our 
system who are ready to be reunified with their families, and 
housing is the only barrier. There's no reason that children 
should be in foster care strictly because of housing. And we 
want to move very quickly. We're going to use some of the money 
that we got this year, the local money, to try to move those 
families off of the waiting lists and reunify them with their 
children. And we think that will have a tremendous impact.
    Senator DeWine. Do you want to comment at any more length 
about this older population, the 43 percent that's over 14?
    Ms. Walker. Definitely. As I said, most of them have been 
there a long time. They have very special needs. I have pulled 
together a subcommittee--we have several judges and other 
people who have experience with older youth or--and some who 
have even grown up in foster care--so that we can have a real 
strategic focus.
    I think we have a lot of resources. And if you look at what 
the best practices recommend, in terms of what older children 
need as they age out, they need to be re-engaged in the 
community, they need to have a network of ongoing support, they 
need to be successful in school, and hopefully encouraged and 
supported to go to college. We do those things. I just think we 
have not been as strategic as we need to be. We're just 
skimming the surface.
    So we're bringing everybody together to look--take a top-
down look at all of the programs and services that we do offer, 
and help us to figure out how we can be more successful. 
Planning earlier is certainly a key. Making sure that children 
who are in foster homes are supported and do not have a lot of 
placement disruptions is very, very important. And encouraging 
more children to go to college, to have mentors so that when 
they graduate from college they have real experiences and those 
connections. We're doing a lot of that. I think we've got to go 
deeper.
    And I'm just so encouraged that now everybody is really 
focused on the older youth. And we will come back with a 
strategic plan, that Judy Meltzer mentioned, very shortly.
    Senator DeWine. How shortly?
    Ms. Walker. We're within the next 30 to 45 days. I mean, 
I'm on a fast track for this, because these children cannot 
wait.
    Senator DeWine. We're anxious to take a look at it.
    Ms. Walker. Right. Thank you.
    Senator DeWine. Ms. Knisley.
    Ms. Knisley. I just want to echo. And let me start with the 
aging-out youth. There are some--actually, some very 
interesting best practices where the mental health services 
would not change, in terms of the provider, at the magic age. 
Because if you've established that relationship, we would like 
to continue with the clinicians, the case workers, right 
through until age 23, 24, 25, while the youth is getting 
stabilized.
    As a matter of fact, one of those programs actually is 
operating in Columbus, another one in Rhode Island, where 
there's much better success if you can keep your mental health 
services stabilized through that period. And we know, talking 
to many youth who have become homeless in the District, that 
we've--we became familiar with after they had come through the 
system, that if we could have just stayed with them, as 
clinicians--and we're more than ready to assist with our new 
providers in staying with youth and not just cutting them off 
at the so-called ``age of majority.'' So I think that that's 
one thing that we can offer with the aging-out youth.
    Ms. Donald Walker and I have actually also been talking 
about housing. The Department of Mental Health, because of our 
adult population, particularly working with people who are 
homeless or disabled, people who need affordable housing, we 
have an affordable housing strategy already going in the 
District. We actually even talked today, and we've talked 
several times before, about joining forces on making certain 
that if a family needs a home and we have--we can help with 
that by combining our housing dollars with supports from CFSA, 
then we can make some of those homes available that would make 
reunification possible. So, yes, we can help there.
    Education, I can't tell you enough about. In the District, 
one of our biggest challenges is that we're still placing more 
children into special education in a month for emotional 
problems than the State of Maryland does in 1 year. And we know 
that a lot of children are going to special education for--with 
emotional problems because we haven't given our classroom 
teachers and the school counselors all the tools that they need 
to reduce the barriers to learning.
    We're now in 29 schools with an exemplary school-based 
mental health program. And the Mayor has asked me for a plan to 
take that program citywide. The results are phenomenal when we 
can actually get in there and get to work. And we can target 
those youth who are in the foster care system, who are at the 
risk or are being identified as children that we could pay 
particular attention to in the schools that we're in. So 
we're--we would be more than happy to participate. And it--I 
just can't say enough about what we need to do in our schools.
    The most--the second most problematic thing about educating 
our youth is, once you go into special ed, the chance that you 
are ever going to graduate from high school is almost zero. 
It's just not going to happen, because there's no hope. Our 
children are losing hope, and they're dropping out.
    Senator DeWine. But, just so I understand, the reason 
that--and you said this earlier, you talked about the 
tremendous increase in the--the other part of that was, in your 
first testimony, I wrote down here, you talked about the 
increase in the request for evaluations.
    Ms. Knisley. That's correct.
    Senator DeWine. So why is all this going on? Tell me again?
    Ms. Knisley. I think that what's going on is that we have a 
number of youngsters who are either traumatized because of the 
disruption in their home, or are--failure to reach them in some 
way. And then they're presenting, then, after-the-fact, for an 
evaluation, after something's already happened.
    Senator DeWine. Okay, but why is that number so 
dramatically going up, though?
    Ms. Knisley. That number is so dramatically going up--is 
because when children are identified in the child welfare 
system, and when--begin to take a look at what's going on with 
the family, the case workers and the judges are saying, 
``There's a real problem here with this child's behavior that 
we need to take a look at.'' And we're saying that what you're 
seeing with children's behavior sometimes is masking depression 
and hopelessness.
    Senator DeWine. I won't belabor the point, but why wasn't 
the--why weren't you seeing those numbers 3 years ago, or 2 
years ago? You said there's been a spike.
    Ms. Knisley. I believe partly because of better 
identification.
    Senator DeWine. Okay, that's fine.
    Ms. Knisley. Yeah, I think----
    Senator DeWine. We're doing a better job identifying them.
    Ms. Knisley. I think--you know, it's hard to tell whether 
it was better identification or more problems. And my 
colleagues here could----
    Judge Satterfield. Well, I have an answer to the spike----
    Senator DeWine. Right. And I want to keep moving, because--
--
    Judge Satterfield. Okay.
    Senator DeWine [continuing]. We're going to get the bell 
here in a second.
    Judge Satterfield. All right.
    Senator DeWine. And I want to make sure that anybody else 
who has a comment for this subcommittee has an opportunity to 
do so.
    Ms. Knisley. Let me make one more comment----
    Senator DeWine. Okay.
    Ms. Knisley [continuing]. If I can, on post-adoption. If 
there were some mental health services that could be offered so 
that we can make adoption possible and say to those potential 
adoptive parents, ``We'll stay with you,'' that will make a 
difference.
    Judge Satterfield. Part of the reason for the spike in 
referrals with DMH is that before you put the Federal dollars 
into enhancing that assessment center, we were going elsewhere, 
using other providers for those services. But the assessment 
center always provided quality service; they just had to 
increase the capacity. So the spike is in their referrals to 
DMH, although there were other providers doing that.
    I'm only going to comment on the older children, because I 
think that's so important, because if we don't do something to 
continue to focus on that, they're going to come through the 
juvenile court system and, obviously, the criminal court 
system. We're doing some things now in Family Court, having 
what we call benchmark permanency hearings in which all the 
stakeholders--mental health and other agencies--come together 
to try and provide a plan. You can do some simple things.
    We actually have an expert on this in our court, and that's 
a judge who aged out of the foster care system, Judge Pamela 
Gray. She'll tell you that you can do some of the simplest 
things, identifying someone in that child's life that's 
important to him. It was her foster parent who she saw, and she 
was able to rely on, after she aged out of the system. We like 
to put her out there, because we like to tell the community, 
``Look what you're missing out on. You could have a judge for a 
daughter if you had adopted this child.'' But she tells us, you 
can do some simple things, just like that. We all have support 
when we leave college and when we come out of high school. We 
have to identify those kind of people while they're in our 
system.
    Senator DeWine. All right. Anybody else?
    Ms. Egerton. I'd just like to----
    Senator DeWine. Sure.
    Ms. Egerton [continuing]. Add to just the importance of 
the--both the services for older children and the post-
permanency services. The lack of services, post-permanency, is 
a very, very real barrier for families. And as a family that 
decided not to adopt a child because we would lose services, 
and even with, you know, the stipends continuing--because the 
child was considered special needs, even with that stipend, my 
husband and I were not going to be able to afford a $36,000 a 
year school. So, as a family, we had to sit down with this 
child and try to make sure he understood that we loved him as 
much as we loved him, but that it wasn't the best decision, for 
him, for us to adopt him. And that's a difficult position to be 
in. And if there were a way for us to still access that service 
for our child, we would absolutely have adopted him. And he 
would have come out of foster care, you know--he came to us at 
11, and he wouldn't----
    Senator DeWine. Good point.
    Ms. Egerton [continuing]. Have had to age out.
    Senator DeWine. Good point.
    Well, good. I thank you all very much. This has been very 
instructive. We will follow up with you, maybe with formal 
questions, but probably more actually with phone calls, which 
is a lot faster and easier for you and easier for us.

                    ADDITIONAL SUBMITTED STATEMENTS

    The subcommittee has received some additional statements 
that we will include in the record.
    [The statements follows:]
                      Letter From The Drenk Center
                                                    March 10, 2005.
Senator DeWine,
Chairman, Dirksen Senate Office Building, 100 Constitution Avenue, 
        Northeast, Rm. 192, Washington, DC 20510.

    Honorable Senator DeWine: The Drenk Center would like to thank you, 
the U.S. Committee on Appropriation, Members of D.C. Subcommittee and 
staff for the opportunity to provide community crisis mobile response 
services to the children currently apart of the foster care system who 
may be residing in the District of Columbia, Prince Georges County, 
Maryland and/or Fairfax or Alexandria, Virginia.
    While we are a new operation here in the District of Columbia, we 
have extensive experience in assisting foster care and the general 
youth culture of the state of New Jersey with remaining in their 
respective placements and/or homes. In the attach data we have provide 
our current data, statistical support with outcomes as we have 
experienced in New Jersey and expect to so provide here in the 
District.
    Again, thank you all for this opportunity.
            Sincerely,
                                     Katherine Gee, M.S.W.,
                                        Program Director, DC CMRSS.

              THE LESTER A. DRENK BEHAVIORAL HEALTH CENTER
                           AGENCY DESCRIPTION

    The Lester A. Drenk Behavioral Health Center (The Drenk Center) is 
a private, non-profit organization headquartered in Hainesport, New 
Jersey, that provides a wide range of behavioral health services. The 
Drenk Center was founded by former Superior Court Judge Lester A. 
Drenk. As a judge who often dealt with juvenile delinquents, Judge 
Drenk saw a need for counseling services to address the needs of 
juveniles and their families. The organization was founded as The 
Burlington County Guidance Center in January 1955 and was later renamed 
in honor of Judge Drenk. The agency is currently celebrating its 50th 
year of providing exceptional and continuous service.
    The Drenk Center's mission is ``partnering with people to provide 
accessible mental health & social services that will improve our 
communities.''
    Our goals, as outlined in our agency's strategic plan, are:
  --To continuously improve: Accessibility to service; customer service 
        and consumer satisfaction; the agency's visibility in the 
        community; and the agency's financial stability by diversifying 
        funding sources.
  --Enhance staff skills to maximize value to the community.
  --Expand community partnerships.
    Since its inception, The Drenk Center has experienced tremendous 
growth and has become a leader in behavioral health programming 
throughout Southern New Jersey. The Drenk Center's services reach all 7 
southern New Jersey counties and the District of Columbia. The agency 
currently has eight sites that are located throughout Burlington 
County, Cape May County, Cumberland County and one in the District of 
Columbia, serving over 8,700 people annually. Our staff of well-
trained, experienced professionals focuses on partnering with consumers 
to help consumers reach their goals. We strive to be creative and 
innovative in how we offer services to make treatment as accessible as 
possible for consumers to connect with us. Services are available 24 
hours a day, every day of the year.
    The agency is licensed as a Mental Health Provider by the New 
Jersey Division of Mental Health Services, and is licensed by the 
Division of Youth and Family Services to provide foster care. The Drenk 
Center is proudly accredited by the Joint Commission on the 
Accreditation of Healthcare Organizations (JCAHO).
    The Drenk Center's services include:
  --Emergency Services;
  --Youth Residential Services;
  --Wrap-around services for children/youth in their natural 
        environment;
  --Outpatient Services (individual, family, couples and group 
        therapy);
  --Psychiatric Services (evaluations and medication monitoring);
  --Adult and Residential Case Management Services;
  --Project for Assistance in Transition from Homelessness;
  --Supportive Housing Program (housing and case management for adults 
        who have a mental illness);
  --Crisis House (short-term residence for adults who have a mental 
        illness and are experiencing crisis);
  --School-Based Services; and
  --The Drenk Center serves persons of all economic levels, all ethnic 
        backgrounds, and all educational backgrounds. A large number of 
        our consumers are economically and educationally disadvantaged.
    The Drenk Center has a variety of programs some of which are 
entirely grant funded and some which ask for consumer contribution in 
terms of payment. At no time do we turn anyone away because of 
inability to pay. We will always work with consumers to put treatment 
needs first and then working out a financial arrangement that is 
acceptable to the consumer. We see people from all income levels and 
work with all major insurance providers including Medicaid, Medicare 
and managed care plans.
    Mobile Response and Stabilization Services (MRSS) are offered in 
Burlington, Atlantic, Cape May, Cumberland, Salem and Gloucester 
Counties in New Jersey and the District of Columbia. MRSS provides time 
limited crisis intervention to children and youth exhibiting emotional 
or behavioral disturbances that threaten to disrupt current living 
arrangements. The MRSS is family oriented, using an individualized 
approach focusing on strengths. Trained response workers diffuse crises 
at the site of the crisis for up to 72 hours. They also work with the 
youth and family caregivers to develop an individual crisis plan for 
the stabilization of each crisis and ensure that stabilization services 
are delivered in the home for up to eight weeks. Response workers 
intervene within one hour from time of referral. Response workers also 
work with the youth and family caregivers to develop community based 
support systems that will remain in place after the crisis has been 
diffused and the stabilization intervention ends. Through our 
experiences we have had to deal with several cultural issues in 
delivering crisis stabilization and in home stabilization services. 
From as simple as the consumer requesting a specific cultural, or sex 
or age preference of an in-home provider to ensuring we have providers 
that are linguistically and culturally competent. The demographics for 
our MRSS over the past three years are as follows: Caucasian--50 
percent, Black--48 percent, Am. Ind.--0 percent, Asian--0 percent, 
Pacific Islander--0 percent, Hispanic--2 percent.
    Collectively the MRSS programs have served 2,034 children and youth 
with emotional and behavioral disturbances since the inception of 
services in December 2002. The following chart identifies the types of 
behaviors that are identified that required a crisis intervention.

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

   DC CHILDREN'S MOBILE RESPONSE AND STABILIZATION SYSTEM (DC CMRSS)

What is the DC Children's Mobile Response Stabilization System?
    The concept of the Children's Mobile Response and Stabilization 
System is based on the Children's Initiative Reform Agenda, which is 
grounded in the belief that children/adolescents have the greatest 
opportunity for normal, healthy development when ties to the community 
and family are maintained. The following are three identified concepts 
that the program is driven upon.
  --Strategies used to achieve these goals and assist in maintaining 
        the system includes child-centered, strength-based processes 
        that cross all life domains.
  --Ties to the family are of the utmost importance, any assistance to 
        the child/adolescent is family-focused and friendly to assure 
        that their needs and goals are an integral part of any planning 
        or implementation process.
  --All interventions are community based and culturally sensitive 
        while working collaboratively with other child-serving systems.
  --Provides time limited crisis intervention for D.C. foster children 
        and youth who are exhibiting emotional or behavioral 
        disturbances that threaten to disrupt their current foster care 
        placement.
  --DC Children's Mobile Response System is family oriented, using an 
        individualized approach and focuses on strengths and needs.
What does the DC Mobile Response Stabilization System do?
    The basics functions of the program are divided into two 
components, Response and Stabilization. The following include the 
Response function of the program:
  --DC CMRSS is a support team providing interventions to assist 
        children/adolescents with emotional and behavioral 
        disturbances. Our goal is to help youth manage their response 
        to life stressors in an appropriate manner that would 
        facilitate them in maintaining their present living 
        arrangement.
  --DC CMRSS operates 24-hours a day. We provide face-to-face in-
        community response and stabilization services. There is a 72-
        hour response period used to de-escalate a child in crisis and 
        up to 8-week period of in-community stabilization 
        interventions.
  --During the response phase a crisis assessment is completed and the 
        level of intervention is determined. A safety plan is developed 
        prior to the response worker leaving the consumer's home and 
        within 24 hours an individualized crisis plan (ICP) is 
        developed. It is through the ICP that the level of 
        intervention(s) is determined and authorized. All interventions 
        are in-community and focus on the areas that precipitated the 
        crisis response call.
    The following include the Stabilization function of the program:
  --The stabilization phase of the program can start within the first 
        twenty-four hours and last up to eight weeks. In-community 
        individual, family, and behavioral assistance interventions are 
        provided to assist the youth to strengthen coping skills and to 
        obtain unmet needs, in order to improve the youth's ability to 
        remain in their current placement. Interventions maybe provided 
        by masters and/or bachelors level clinicians. Prior to 
        discharge, the youth and his/her family are connected to 
        resources that support the youth remaining where he/she is and 
        assist the youth with working on long-term needs.
  --DC CMRSS recognizes that sometimes youth and their caregivers may 
        need a ``cooling off'' period, and it is at that time, DC CMRSS 
        can access a stabilization bed for up to seven days. This is 
        done only in an emergent situation and with the agreement that 
        the youth may return to his/her current living arrangement.

Success Case No 1:
            IDENTIFYING INFORMATION:
    Consumer is an African American female, age 15 who currently 
resides in the home of foster parent, along with foster parent's 
daughter, 17 year old female. The family resides in the North East 
section of Washington, DC, reportedly has a history of depression, and 
has been in the current placement for 30 days.
            IDENTIFYING PROBLEM:
    This case was referred to DCMRSS by the Access Help Line on 2/4/05. 
Consumer was missing from placement 3-4 days refusing to return to the 
foster parent home. Response Worker arranged meeting with Social 
Worker, foster parent and foster parent's biological daughter.
    PROBLEM: Foster child refused to return home as she over heard 
foster sister speaking about her on the telephone with friends. 
Consumer was offended and left the home.
    RESOLUTION: All parties agreed to meet as CFSA, Foster parent's 
daughter apologized to consumer, and they made up and went home.
    Safety Plan developed and in-home stabilization services are being 
received by the family on a weekly basis.

Success Case No 2:
            IDENTIFYING INFORMATION
    African American female, age 14 resides in Clinton, MD for past 
seven (7) months. Return placement of consumer after several foster 
home and residential placements. Child was 10 when lived with family 
for a short period. Consumer's history included runaway, physical and 
verbal abusive behavior, fire setting, medication overdose and verbal 
threats towards foster mother. Client is diagnosed as having ADHD, 
major depression, and post-traumatic stress disorder. As a result of 
her current diagnosis, she is receiving Risperdal (1mg) and Concentra 
(36mg) for treatment
            IDENTIFYING PROBLEM:
    This case was referred to DCMRSS by the Access Help Line on 3/1/05. 
Consumer was exhibiting out of control behavior, being physical and 
verbally abusive towards her foster mother and refusing to take her 
medications. Foster Parent felt consumer was a threat to self and 
others and parent requesting removal from home.
    PROBLEM: Foster Parent requesting removal of child from home.
    RESOLUTION: After several hours of intensive one on one with 
consumer, jointly with foster parent and consumer, response worker was 
able to resolve the crisis at hand. Intensive intervention lasted four 
(4) hours. Safety plan developed, and the family agreed to receive in-
home stabilization services. The case was referred to our stabilization 
unit for intensive services on a weekly basis.
                                 ______
                                 
                  Prepared Statement of Youth Villages

    We would first like to thank Senators DeWine and Landrieu, as well 
as the Committee for their commitment to improving the quality and 
availability of mental health services to children and families in the 
District of Columbia. Your vision in seeking empirically-based 
treatment practices for the youth and families involved in the 
District's foster care system is commendable. We, at Youth Villages, 
are honored to have been chosen to provide Multisystemic Therapy to 
these families as part of this initiative.
    Multisystemic Therapy (MST) is an evidence-based model that is the 
result of over twenty years of research. MST is a community based 
approach to treatment. We work with children and families in their 
natural environments--home, school, and neighborhood--to address 
problem behaviors where they are actually occurring. In this model, the 
environmental factors in a client's life--family, peers, school, and 
community--are key components of treatment. We provide intensive 
services that include at least three in-home sessions per week as well 
as 24/7 on-call availability for crisis intervention and support. In 
addition, MST utilizes a highly structured model of supervision to 
insure high quality of service and model adherence. This is an 
essential component as a recently completed transportability study 
found that outcomes were directly related to model adherence. Youth 
Villages has been providing this service in a variety of settings for 
the past ten years and is currently the largest provider of MST 
services in the world. In this time, what we have found is that MST is 
incredibly effective in addressing issues such as runaway, truancy, 
substance use, and other delinquent behaviors with youth and families 
who have been deemed ``tough to treat'' by other treatment modalities. 
MST as a treatment model has been highlighted as effective by the 
Surgeon General and the National Institutes of Health. At one year 
post-discharge, Youth Villages' outcome data shows a success rate of 
70-85 percent depending on the population served.
    Although we have only been providing services for a short period of 
time in the District, we are already beginning to see some successes 
with our cases. We would like to briefly share two of these with you 
today. The first is a 14-year-old female who was referred to our 
program due to runaway, truancy and physical aggression. She was at 
risk of removal from her home and possible placement in foster care. We 
began working with her mother on implementing consistent structure and 
supervision at home and increased communication between home and 
school. In the past three weeks, she has been attending school daily, 
has not gotten into any physical fights, and has not runaway. Her 
mother reports feeling better equipped to handle her behavior and the 
chances of disruption have been greatly reduced. The second case is a 
12-year-old male who has been in an out of state residential treatment 
facility for the past four years. One of the barriers to bringing him 
back home was some reluctance on the part of his family to take him in 
due to their concerns about his behaviors. Since we have been involved, 
his paternal aunt has agreed to allow him to return to her home, in 
large part, due to the level of support that MST will be able to 
provide. We have begun working intensively with her on preparing for 
this and will continue to work with the family through the transition. 
He is scheduled to return home at the end of March.
    We have found that major system reforms can be achieved by 
increasing services that both reunify and stabilize families. Services 
grounded in science with strong outcome measurement practices will 
ultimately reduce family involvement in both the child welfare and 
legal systems. By increasing family responsibility, long-term foster 
care placements and related expenses can be reduced. Fewer children 
will remain in the foster care system and more children will remain 
successfully with their families. These are the results that we expect 
to replicate on a broader scale in the District of Columbia.
                                 ______
                                 
                 Prepared Statement of First Home Care

    Dear U.S. Senate Committee on Appropriations, District of Columbia 
Subcommittee--Senator DeWine, and members of the District of Columbia 
Subcommittee and staff: Thank you for the privilege of standing before 
you to express gratitude and appreciation for changing the course of 
history in the lives of families struggling with their children's 
mental health issues. It is with great honor and pride that First Home 
Care, a Core Service Agency, has accepted the challenge to establish 
the District of Columbia's first Intensive Home and Community-Based 
Services program. As a frontline Core Service Agency, we are serving 
the mental health needs of hundreds of youths and families. We are 
aware of the overwhelming needs and cries for supportive and 
preventative services that can empower families to effectively manage 
their own challenges and maintain stability in their homes, schools and 
communities. Thanks to the listening ears and devoted hearts of our 
Congressional leaders, the cries of these families are being heard and 
their needs are being met.
    First Home Care's Intensive Home and Community-Based Services 
program is designed to intervene in family crises and prevent the need 
for out-of-home placements into foster care, psychiatric hospitals or 
residential treatment facilities. The program transitions and monitors 
youths returning from out-of-home placements to their long term family 
placements. Each family is assigned a trained case manager who uses a 
strengths-based approach to address the specific needs of each family. 
The program has an oncall component and provides 24/7 crisis 
intervention and stabilization. The families are trained to implement 
preventative and proactive parenting skills and behavior/crisis 
management strategies designed to reinforce parental effectiveness in 
the home, school and community.
    The Intensive Home and Community-Based Services program is 
appropriate for CFSA children/youths between the ages of 6-21, who have 
been identified as having an emotional or behavioral disturbance. They 
must be residents of the District of Columbia, and at risk for being 
removed from their families or long term placements.
    Families of children with mental health needs are being helped at 
this very moment. Children who have been recognized as ``extremely 
difficult to manage'' in their homes, school and communities are being 
constructively engaged, encouraged, supported, monitored and 
successfully redirected. Mothers, fathers, grandmothers, aunts, uncles, 
and foster parents who were at the brink of surrendering their troubled 
loved ones to be removed from their homes are now receiving the long 
awaited support and training they've needed to successfully manage 
them.
    A particular grandmother and father in this community thank you, 
U.S. Senate Committee on Appropriations, District of Columbia 
Subcommittee--Senator DeWine, and members of the District of Columbia 
Subcommittee and staff, for allocating the funds to make it possible 
for them to nurture and support their special needs child at home. 
Until such services were in place, they were heartbroken and torn over 
the fact that their grandson/son would have to grow up and be reared in 
a strange environment by strangers. Thanks to all of you, a single 
mother who suffers from her own mental health issues and a terminal 
illness, is finding courage to rise up out of her deep depression and 
to take control of her four children's lives and prepare them for their 
futures. She was overwhelmed by their special needs as well as her own 
and had given up. It's heartwarming to see her sparkling smile as she 
successfully implements her duties as their mother. She is establishing 
routines, and setting limits and seeing improvement in her children's 
behavior. The children's school attendance and performance are 
improving. She simply needed a program like Intensive Home and 
Community-Based Services to acknowledge her strengths, provide support 
and training to get her moving in the right direction. Without these 
services, her children might have been immediately removed from her 
home and placed in foster care.
    There are many more ``thank yous'' awaiting you, U.S. Senate 
Committee on Appropriations, District of Columbia Subcommittee--Senator 
DeWine, and members of the District of Columbia Subcommittee and staff, 
and even more ``thank yous'' to come from the hearts and lips of the 
struggling families you have helped us reach by allocating funds for 
these much needed services.

                         CONCLUSION OF HEARING

    Senator DeWine. And we appreciate it. We look forward to 
working with all of you. You've been very helpful. And we hope 
we can be helpful to you to continue to do the great work that 
you're doing. So thank you very much.
    [Whereupon, at 4:25 p.m., Thursday, March 10, the hearing 
was concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]


</pre></body></html>
